<html>
<title> - H.R. 142, H.R. 1156, H.R. 2960 AND H.R. 2991</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
             H.R. 142, H.R. 1156, H.R. 2960 AND H.R. 2991

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                     Wednesday, September 10, 2003

                               __________

                           Serial No. 108-53

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-270              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

George Radanovich, California        Calvin M. Dooley, California
Greg Walden, Oregon                  Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Raul M. Grijalva, Arizona
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Tom Osborne, Nebraska                George Miller, California
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Stevan Pearce, New Mexico            Joe Baca, California
Devin Nunes, California              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 10, 2003....................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement on H.R. 142, H.R. 1156, H.R. 2960 and 
          H.R. 2991..............................................     3
    Dreier, Hon. David, a Representative in Congress from the 
      State of California........................................     5
        Prepared statement on H.R. 2991..........................     6
    Miller, Hon. Gary G., a Representative in Congress from the 
      State of California........................................     8
        Prepared statement on H.R. 142...........................     9
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     5
    Ortiz, Hon. Solomon P., a Representative in Congress from the 
      State of Texas.............................................    12
        Prepared statement on H.R. 2960..........................    13
    Sanchez, Hon. Loretta, a Representative in Congress from the 
      State of California........................................    10
        Prepared statement on H.R. 1156..........................    11

Statement of Witnesses:
    Atwater, Richard, CEO/General Manager, Inland Empire 
      Utilities Agency...........................................    18
        Prepared statement on H.R. 142 and H.R. 2991.............    20
    Bilodeau, Denis, President, Board of Directors, Orange County 
      Water District.............................................    27
        Prepared statement on H.R. 1156..........................    29
    Campirano, Eduardo A., Assistant General Manager and COO, 
      Brownsville Public Utilities Board.........................    31
        Prepared statement on H.R. 2960..........................    33
    DeLoach, Robert, CEO/General Manager, Cucamonga County Water 
      District...................................................    34
        Prepared statement on H.R. 2991..........................    36
        Letters submitted for the record.........................    39
    Rinne, William, Deputy Commissioner, Operations, Bureau of 
      Reclamation, U.S. Department of the Interior...............    14
        Prepared statement on H.R. 142...........................    15
        Prepared statement on H.R. 1156..........................    16
        Prepared statement on H.R. 2960..........................    17
        Prepared statement on H.R. 2991..........................    17

Additional materials supplied:
    Ovitt, Hon. Gary C., Mayor, City of Ontario, California, 
      Letter submitted for the record............................    55
 H.R. 142, TO AMEND THE RECLAMATION WASTEWATER AND GROUNDWATER 
  STUDY AND FACILITIES ACT TO AUTHORIZE THE SECRETARY OF THE 
  INTERIOR TO PARTICIPATE IN THE INLAND EMPIRE REGIONAL WATER 
 RECYCLING PROJECT, TO AUTHORIZE THE SECRETARY TO CARRY OUT A 
 PROGRAM TO ASSIST AGENCIES IN PROJECTS TO CONSTRUCT REGIONAL 
 BRINE LINES IN CALIFORNIA, AND TO AUTHORIZE THE SECRETARY TO 
    PARTICIPATE IN THE LOWER CHINO DAIRY AREA DESALINATION 
DEMONSTRATION AND RECLAMATION PROJECT; H.R. 1156, TO AMEND THE 
RECLAMATION WASTEWATER AND GROUNDWATER STUDY AND FACILITIES ACT 
 TO INCREASE THE CEILING ON THE FEDERAL SHARE OF THE COSTS OF 
   PHASE I OF THE ORANGE COUNTY, CALIFORNIA, REGIONAL WATER 
   RECLAMATION PROJECT; H.R. 2960, TO AMEND THE RECLAMATION 
    WASTEWATER AND GROUNDWATER STUDY AND FACILITIES ACT TO 
 AUTHORIZE THE SECRETARY OF THE INTERIOR TO PARTICIPATE IN THE 
     BROWNSVILLE PUBLIC UTILITY BOARD WATER RECYCLING AND 
DESALINIZATION PROJECT; AND H.R. 2991, TO AMEND THE RECLAMATION 
    WASTEWATER AND GROUNDWATER STUDY AND FACILITIES ACT TO 
   AUTHORIZE THE SECRETARY OF INTERIOR TO PARTICIPATE IN THE 
   INLAND EMPIRE REGIONAL RECYCLING PROJECT IN THE CUCAMONGA 
            COUNTY WATER DISTRICT RECYCLING PROJECT.

                              ----------                              


                     Wednesday, September 10, 2003

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:38 p.m., in 
Room 1324, Longworth House Office Building, Hon. Ken Calvert 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Calvert, Napolitano, Tancredo, 
Inslee, Grijalva, Osborne, Rodriguez, Pearce, Baca and Ortiz.

  STATEMENT OF HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. The legislative hearing by the Subcommittee on 
Water and Power will come to order.
    The Subcommittee is meeting today to hear testimony on four 
bills, H.R. 142, to amend the Reclamation Wastewater and 
Groundwater Study and Facilities Act to authorize the Secretary 
of the Interior to participate in the Inland Empire regional 
water recycling project, to authorize the Secretary to carry 
out a program to assist agencies in projects to construct 
regional brine lines in California, and to authorize the 
Secretary to participate in the Lower Chino Dairy Area 
desalination demonstration and reclamation project.
    Mr. Calvert. H.R. 1156, to amend the Reclamation Wastewater 
and Groundwater Study and Facilities Act to increase the 
ceiling on the Federal share of the costs in Phase I of the 
Orange County Regional Water Reclamation Project.
    Mr. Calvert. H.R. 2960, to amend the Reclamation Wastewater 
and Groundwater Study and Facilities Act to authorize the 
Secretary of Interior to participate in the Brownsville Public 
Utility Board recycling and desalinization project.
    Mr. Calvert. And H.R. 2991, to amend the Reclamation 
Wastewater and Groundwater Study and Facilities Act to 
authorize the Secretary of Interior to participate in the 
Inland Empire regional recycling project in the Cucamonga 
County Water District recycling project.
    Mr. Calvert. I will begin with an opening statement.
    Throughout this year, the Subcommittee has focused on the 
need for non-traditional water supply projects that are 
regional in scope in an effort to help more communities become 
drought-proof. The constant and positive drumbeat on the need 
for these projects led me to include a competitive grants 
program and a number of other provisions that promote 
community-based water recycling and desalination efforts in 
H.R. 2828, my legislation to increase water supplies 
nationwide. Each of the bills that we will address today will 
qualify and, I believe, have a better chance of being funded 
and coordinated more efficiently through H.R. 2828 than the 
current mechanisms we have in place.
    However, I believe we need to continue to make the case for 
the important role of water recycling throughout the country, 
thus the need to hear these bills today. As we have often 
heard, there is a legitimate Federal role in helping 
communities develop new water supplies because existing 
traditional water sources are being stretched beyond their safe 
limits.
    Today, we will focus on how several communities plan to 
meet their water needs through non-traditional sources. In 
water-deficient traditions, such as South Texas and the 
Southern and Central coastal areas of California, advanced 
water treatment facilities and technologies are being 
considered to a greater extent than ever before in response to 
increasing demands on limited high-quality water supplies.
    As we know, the Bureau of Reclamation's core function is to 
develop water supplies. As part of this responsibility, the 
Department of Interior held a rock-star-like tour this summer 
on its 2025 program. I am still waiting for the tour T-shirts, 
but they haven't been delivered to my office.
    [Laughter.]
    Mr. Calvert. The tour throughout the West received much 
input from water leaders on non-traditional ways to improve 
water supply conditions. I hope this input has reinforced the 
notion that the Department can do more to improve water 
supplies and water recycling and desalination technologies. 
Today, I look forward to hearing from the Bureau on how it will 
go about incorporating the tour's input into its Water 2025 and 
Western Water Initiative programs and its level of support for 
water recycling and desalination legislation.
    H.R. 142, H.R. 1156, H.R. 2960, and H.R. 2991 would allow 
the Secretary of Interior to provide technical and Federal 
financial resources through the use of the Title XVI program. 
We have the privilege of hearing from several leaders who are 
very aware of how water supplies are being stressed and how 
important it is for innovative and non-traditional ways to meet 
future water demands. I thank the panel for being here today 
and look forward to your testimony.
    [The prepared statement of Mr. Calvert follows:]

 Statement of The Honorable Ken Calvert, a Representative in Congress 
                      from the State of California

    Throughout this year, the Subcommittee has focused on the need for 
non-traditional water supply projects that are regional in scope in an 
effort to help more communities become ``drought-proof.'' The constant 
and positive drumbeat on the need for these projects led me to include 
a competitive grants program and a number of other provisions that 
promote community-based water recycling and desalination efforts in 
H.R. 2828, my legislation to increase water supplies nationwide. Each 
of the bills that we will address today would qualify, and I believe, 
have a better chance of being funded, and coordinated more efficiently 
through H.R. 2828 than the current mechanisms we have in place.
    However, I believe we need to continue to make the case for the 
important role of water recycling throughout the Country, thus the need 
to hear these bills today. As we have often heard, there is a 
legitimate federal role in helping communities develop new water 
supplies because existing, traditional water sources are being 
stretched beyond their safe limits.
    Today, we will focus on how several communities plan to meet their 
water needs through non-traditional sources. In water-deficient regions 
such as south Texas and the southern and central coastal areas of 
California, advanced water treatment technologies are being considered 
to a greater extent than ever before in response to increasing demands 
on limited high quality water supplies.
    As we know, the Bureau of Reclamation's core function is to develop 
water supplies. As part of this responsibility, the Department of the 
Interior held a tour this summer on its Water 2025 program.
    This tour throughout the West received much input from water 
leaders on non-traditional ways to improve water supply conditions. I 
hope that this input has reinforced the notion that the Department can 
do more to improve water supplies from water recycling and desalination 
technologies. Today, I look forward to hearing from the Bureau of 
Reclamation on how it will go about incorporating the tour's input into 
its Water 2025 and Western Water Initiative programs and its level of 
support for water recycling and desalination legislation.
    H.R. 142, H.R. 1156, H.R. 2960, and H.R.2991 would allow the 
Secretary of the Interior to provide technical and federal financial 
resources through the use of the Title 16 Program. We have the 
privilege of hearing from several leaders who are very aware of how 
water supplies are being stressed and how important it is to look for 
innovative and non-traditional ways to meet future water demands. I 
thank the panel for being here today and look forward to your 
testimony.
                                 ______
                                 
    Mr. Calvert. I will now recognize Mrs. Napolitano for her 
opening statement.

  STATEMENT OF HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman. I thoroughly and 
sincerely appreciate your continued interest in the water 
recycling and desalination projects. My views in promoting 
these type of projects are very well known and I have been very 
outspoken in this Committee and to other Committee members 
about the necessity of increased funding for both of those type 
of programs.
    Our business community, our community leaders throughout 
the Western States continue to press for help with vital 
recycling projects, with desalination projects, with projects 
to clean up contaminated groundwater supplies, and funding for 
these projects would solve these costly problems. If we don't 
care of them now, we pay much more in the future.
    And in most of these cases, three-quarters of the funding 
actually comes from local sources. In many of these cases, the 
Federal Government only provides seed money, serves as a 
partner and a facilitator in those projects. But for 
questionable reasons nobody can explain, we continue to see 
that these business-friendly and locally supported, cost-
effective, locally driven projects initiated by the previous 
Bush Administration are lost on this current Administration.
    I and many of my colleagues remain extremely frustrated, 
confused, et cetera, by this Administration's consistent and 
continued opposition to recycling and desalination 
authorization bills, funding specifically for recycling 
projects. How can Secretary Norton expect us to support the 
Interior Department's Water 2025 program when this same 
Department continues to oppose technology-based proven and 
effective projects? As I expect we will hear in today's 
testimony, what credibility does the Interior Department have 
when they refuse to meet our many and repeated requests that 
they release the reports on the California water recycling 
mandated by Congress in 1992 that would, without a shadow of a 
doubt, prove the effectiveness of these projects?
    Mr. Chairman, you and I are not the only ones in Congress 
who are not only puzzled but angered by the Administration's 
denial of water recycling as an important tool for giving the 
Nation the reuse of our precious commodity, water. I recall 
seeing the recent report from Chairman David Hobson of the 
Appropriations Subcommittee urging the Administration to 
reconsider its lack of support for this program.
    I look forward to hearing from our witnesses today, who, I 
am sure, will explain the many benefits of these projects to 
our many communities and send a clear and simple message to 
this Administration that it cannot afford to turn its back on 
locally supported beneficial water recycling projects.
    Thank you, Mr. Chairman, and I again, for the record, 
request that report again.
    [The prepared statement of Mrs. Napolitano follows:]

   Statement of The Honorable Grace Napolitano, a Representative in 
                 Congress from the State of California

    Mr. Chairman, I sincerely appreciate your continued interest in 
water recycling and desalination projects. My views on promoting these 
projects are well-known, and I have been very outspoken to you and 
other Committee Members about the necessity of increasing funding for 
them.
    Business and community leaders throughout the Western States 
continue to press for help with vital recycling projects, with 
desalination projects, and with projects to clean up contaminated 
groundwater supplies. These projects will solve costly problems, and in 
most cases, 3/4th of the funding comes from local sources. The Federal 
government merely provides seed money and serves as a partner and a 
facilitator in these projects.
    But for questionable reasons nobody can explain, we continue to see 
that these business friendly and supported, cost-effective, locally 
driven projects, initiated by the previous Bush Administration, is lost 
on the current Bush Administration.
    I and many of our colleagues remain extremely frustrated and 
confused by this Administration's consistent continuance of opposition 
to authorization bills and funding for recycling projects. How can 
Secretary Norton expect us to support the Interior Department's ``Water 
2025'' program when this same Department continues to oppose 
technology-based projects, as I expect they will in their testimony 
today? What credibility does Interior Department have when they refuse 
to meet our many and repeated requests that they release the reports on 
California water recycling mandated by Congress in 1992?
    Mr. Chairman, you and I are not the only ones in Congress who are 
not only puzzled but angered by this Administration's denial of water 
recycling as an important tool for water supply nation-wide. I recall 
seeing the recent report from Chairman David Hobson of the 
Appropriations Subcommittee, urging the Administration to ``reconsider 
its lack of support for this program.''
    I look forward to hearing from our witnesses today, who I am sure 
will explain the many benefits of these projects to their communities 
and send a clear and simple message to this Administration that it 
cannot afford to turn its back on locally supported water recycling 
projects.
                                 ______
                                 
    Mr. Calvert. I thank the gentlelady and I will second her 
request.
    Our first panel, we are joined by our colleagues and 
friends and I have the opportunity and privilege to introduce 
my neighbor, Mr. Dreier, who also is the Chairman of the Rules 
Committee, to give his testimony.

 STATEMENT OF HON. DAVID DREIER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Thank you very much, Mr. Chairman, Mrs. 
Napolitano, Mr. Tancredo, Mr. Osborne, Mr. Pearce, and Mr. 
Ortiz. As I look at the combination of the Committee dais and 
the panel at this juncture, I am happy that Californians 
outnumber the other members who are in the room at this 
juncture, but it does not in any way indicate the fact that we 
don't want to enjoy very strong bipartisan and a broad 
geographic base of support for recycling initiatives.
    I am here very briefly, Mr. Chairman, to simply 
congratulate you and Mrs. Napolitano on your commitment to our 
focus on recycling and to say that I have introduced 
legislation, which members of this Subcommittee and Mr. Miller, 
you especially, Mrs. Napolitano, are cosponsors, along with our 
colleague, Mr. Baca, and it is the last measure that you 
mentioned, Mr. Chairman. It is the H.R. 2991.
    I am pleased that there is an emphasis here from the 
Congress, and I would say to Mrs. Napolitano, having listened 
to her slightly--I put you in the undecided column on the 
administration on this based on your comments. I don't take it 
as a negative. I will say that often, the legislative branch 
does provide encouragement to the second branch of government, 
the executive branch, and clearly, the leadership role that you 
and Mr. Calvert are showing on this, I believe will play a role 
in it, as well as moving the very important legislation that we 
are going to be here talking about.
    I am very pleased that we have Richard Atwater, who is the 
General Manager of the Inland Empire Utilities Agency, and he 
is going to be testifying here on behalf of this important 
legislation, because as you said in your opening remarks, Mr. 
Chairman, we are looking for a locally led coalition that does 
include people at the various levels of government, but it 
needs to be locally driven. I think that is one of the things 
that we focus on when it comes to environmental issues, when it 
comes to water issues, because obviously that is the 
appropriate thrust to take, rather than having it dictated from 
a higher level.
    So I hope very much--I believe that is what H.R. 2991, 
which I have introduced along with our colleagues, is designed 
to do, and I hope very much that you will be able to move ahead 
on that. I thank you very much for having me and I hope you 
will--you know, we just went through that series of votes and I 
had a 2:30 meeting, so I hope you will excuse me and allow me 
to go back up to try and make sure we keep the flow of 
legislation for you all to vote on the House floor in order.
    Mr. Calvert. Thank you for your testimony.
    Mr. Dreier. Thank you very much.
    [The prepared statement of Mr. Dreier follows:]

 Statement of The Honorable David Dreier, a Representative in Congress 
                      from the State of California

    Mr. Chairman, thank you for holding this hearing on pending water 
legislation. I am pleased to submit this statement for the record on 
behalf of the Inland Empire Regional Water Recycling Initiative, H.R. 
2991, legislation I recently introduced to authorize water recycling 
projects under the U.S. Bureau of Reclamation's Title XVI program.
    The Inland Empire Regional Water Recycling Initiative includes two 
projects, the first of which will be constructed by the Inland Empire 
Utilities Agency (IEUA) and will produce 70,000 acre-feet of new water 
annually. This project is expected to be fully constructed and on-line 
by 2008. The second of these projects, to be constructed by the 
Cucamonga County Water District (CCWD), will produce an additional 
5,000 acre feet of new water annually. This project is expected to be 
fully constructed and on-line by 2010. Between these two projects, 
75,000 acre feet of new water will be produced annually before the end 
of the decade.
    Earlier this year, the U.S. Department of the Interior announced a 
new initiative--Water 2025 - Preventing Crisis and Conflict in the 
West--aimed at preventing chronic water supply problems in the Western 
United States resulting from drought, growth, or other challenges. In 
addition to the federal strategy, California, more than a year ago, 
established a special Water Recycling Task Force, managed by the State 
Water Resources Control Board. The Task Force concluded that by the 
year 2030, California should develop 1.5 million acre feet of new 
recycled water.
    In addition to being consistent with these broad studies, H.R. 2991 
directly impacts the U.S. Bureau of Reclamation's Title XVI program, 
which is dedicated to investigate and identify opportunities for water 
reclamation and reuse. The Bureau's budget is consistently underfunded. 
The Fiscal Year 2004 request from the Administration was $878 million. 
While this is an increase of $23.1 million from the Fiscal Year 2003 
request, it is approximately $33.3 million less than Congress 
appropriated for FY03. Currently under Title XVI, there are $580 
million worth of existing authorized projects that have yet to receive 
any funding.
    This is why I am pleased to be an original cosponsor of Chairman 
Calvert's Water Supply, Reliability, and Environmental Improvement Act, 
H.R. 2828. With the introduction of this legislation, it is clear that 
the time has come to focus efforts on water reuse, a critical component 
in a balanced water supply. Title I of H.R. 2828 established a 
competitive grants program for desalination, groundwater recharge, 
brine removal, water quality, and water reuse projects. With the 
federal share set at 35 percent of the project's total cost, the 
federal government can partner with local governments and local water 
agencies, in a fiscally responsible manner, to meet our serious water 
needs. This new program will only bolster ongoing activities within the 
Bureau, and bring focus to an area of water policy that has gone 
largely ignored for far too long.
    Water supply issues in California and other Western states are of 
paramount concern, especially in light of ongoing challenges with the 
Colorado River Quantification Settlement Agreement. In order to meet 
the water needs of the Inland Empire, and to help alleviate 
California's over-dependence on the Colorado River, I see this 
legislation as a key federal-local partnership to bring a significant 
amount of new water supply to the region.
    The local support for IEUA's ongoing efforts is so strong because 
water recycling is such an innovative and environmentally sound tool 
for meeting our water needs. IEUA currently offers disinfected, 
tertiary recycled water through its four treatment facilities, that 
meets all standards under California's Title 22 requirements for non-
restricted recreational use, which includes full body contact 
activities, such as swimming. Monitoring and reporting to the Regional 
Water Quality Control Board is required to ensure recycled water 
quality standards are being met.
    IEUA also produces recycled water for a variety of non-potable 
purposes, such as landscape irrigation, agricultural irrigation, 
construction, and industrial cooling. By replacing these water-
intensive applications with high-quality recycled water, fresh water 
can be conserved or used for drinking, thereby reducing the dependence 
on expensive imported water. In addition, by recycling water which 
would otherwise be wasted and unavailable, IEUA provides that the water 
available goes through at least one more cycle of beneficial use before 
it is ultimately returned to the environment.
    The Inland Empire Regional Water Recycling Initiative has the 
support of all member agencies of IEUA, as well as the water agencies 
downstream in Orange County. IEUA encompasses approximately 242 square 
miles and serves the cities of Chino, Chino Hills, Fontana (through the 
Fontana Water Company), Ontario, Upland, Montclair, Rancho Cucamonga 
(through the Cucamonga County Water District), and the Monte Vista 
Water District. The Initiative is also consistent with regional 
watershed plans, the California Department of Water Resources water 
recycling task force, the U.S. Bureau of Reclamation's comprehensive 
water study, and the Department of Interior's ``Water 2025'' plan.
    I look forward to working closely with the Subcommittee on Water 
and Power as well as the full House Resources Committee to see that 
H.R. 2991 receives strong consideration, approval for House Floor 
consideration, and eventual passage and enactment. Again, thank you for 
holding this hearing.
                                 ______
                                 
    Mr. Calvert. Unless there are any questions, you are free 
to go.
    Mrs. Napolitano. No questions, but Chairman Dreier, and I 
understand what you are alluding to, but understand that when 
we are faced with the cuts in the Bureau of Reclamation's water 
recycling, none of these projects would go forward.
    Mr. Dreier. Well, I understand, and that is why I am saying 
that the stellar leadership that you and Chairman Calvert are 
providing--
    Mrs. Napolitano. We need some help.
    Mr. Dreier. Well, listen, I am sitting here and I am ready 
to stand up. And so once I get in motion, I will be ready, 
willing, and able to do even more on behalf of it. Thank you 
very much again, Mr. Chairman, and now the first string, Mr. 
Miller and Ms. Sanchez, are going to take over.
    Mr. Calvert. Thank you.
    Mr. Dreier. Thank you very much for having me.
    Mr. Calvert. Thank you, Mr. Dreier.
    Next, our friend, my colleague and also my neighbor, Mr. 
Miller, to give his testimony.

STATEMENT OF HON. GARY G. MILLER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Gary Miller of California. Thank you, Mr. Chairman, for 
holding this important hearing. We spend a lot of time talking 
about these issues and how it really impacts California, so 
this is a real pleasure to be here before you and the 
Committee.
    This is a matter that is critical for the Southern 
California region. I am pleased to be here with my colleagues 
from California, both Mr. Dreier and Ms. Sanchez, who have very 
similar bills, but we are all trying to accomplish the same 
process.
    Many States today are faced with the formidable task of 
providing reliable and safe water resources for a rapidly 
increasing population. Southern California's arid climate makes 
it difficult for this region to find a viable, dependable 
source of water. The Interior Department's ruling to reduce the 
availability of Colorado River water to Southern California 
exacerbates the area's water supply problem by diverting 
approximately 700,000 acre feet of water a year alone. Not 
having a reliable source of water discourages economic growth, 
imperils the environment, and compromises the health and safety 
of Southern California residents.
    It is for this reason that Congress must work to find an 
innovative and effective solution to the challenges posed by 
such debilitating water shortages, and I believe H.R. 142 
offers such a viable solution. This bill will help 
significantly enhance the region's water quality and safety by 
constructing a water recycling project, regional brine lines 
and desalination demonstration reclamation projects.
    First, to the construction of the water recycling project, 
Southern California will be provided with a critical 70,000 
additional acre feet of new water annually. In a region that is 
prone to drought, the expansion of this water supply will 
deliver safe and much needed water to the area's outdoor 
recreational facilities, waters, parks, freeways, landscapers 
and irrigators.
    Second, the construction of the desalination reclamation 
project to the Lower Chino Dairy Area offers a viable solution 
to the region's water woes, and as you know, Mr. Calvert, we 
have about 380,000 adult dairy cows sitting on that aquifer 
that causes a tremendous problem. As former President Dwight D. 
Eisenhower once said, we need a far-sighted program for meeting 
urgent water needs by converting salt water to fresh water. 
Once deemed impractical and costly, desalination has evolved 
into one of America's most effective and reliable solutions to 
water shortages.
    The project provided for in H.R. 142 would expand 
groundwater desalination to the Chino Basin from the current 
9,000 acre feet per year to 40,000 acre feet per year, which 
would provide a vital new drinking water supply for the rapidly 
increasing population in San Bernardino County and Orange 
County.
    Finally, H.R. 142 provides a means to safely and 
effectively discard excess brine from the desalination plants. 
Specifically, this legislation calls for construction of a 
regional line to transport excess brine to the Pacific Ocean, 
where it can be safely filtered through an ocean outfall pump 
station. This will prevent many of the environmental hazards 
that can occur from the inadequate disposal of excess brine, 
thus benefiting the quality of life of over the six million 
residents of Orange, Riverside, and San Bernardino County.
    In conclusion, I believe Mr. Atwater and Mr. Grindstaff 
will illuminate the critical need for these projects in 
Southern California and I welcome them to the Committee today. 
Thank you, Mr. Chairman, for your leadership on this issue and 
I know you have fought hard for years to deal with this problem 
and I trust in your leadership in the future. I am looking 
forward to working with you. Thank you
    [The prepared statement of Mr. Miller follows:]

Statement of The Honorable Gary G. Miller, a Representative in Congress 
               from the State of California, on H.R. 142

    Thank you, Mr. Chairman for holding a hearing on this important 
issue. As this is a matter that is critical for the southern California 
region, I am pleased to be here with my colleagues from the California 
Delegation, Congressman Dreier and Congresswoman Sanchez.
    Many states today are faced with the formidable task of providing 
reliable and safe water resources for a rapidly increasing population. 
Southern California's arid climate makes it difficult for this region 
to find viable and dependable sources of water. The Interior 
Department's ruling to reduce the availability of Colorado River water 
to Southern California exacerbated the area's water supply problems by 
diverting approximately 700,000 acre feet of water this year alone. Not 
having a reliable source of water discourages economic growth, imperils 
the environment and compromises the health and safety of southern 
California residents. It is for this reason that Congress must work to 
find innovative and effective solutions to the challenges posed by such 
debilitating water shortages. H.R. 142 offers such viable solutions.
    H.R. 142 will help significantly enhance the region's water quality 
and safety by constructing a water recycling project, regional brine 
lines, and a desalinization demonstration and reclamation project.
    First, through the construction of a water recycling project, 
southern California will be provided with a critical 70,000 additional 
acre feet of new water annually. In a region that is prone to droughts, 
the expansion of this water supply will deliver safe and much-needed 
water to the area's outdoor recreational facilities, parks, freeway 
landscaping and irrigators.
    Second, the construction of a desalinization demonstration and 
reclamation project in the lower Chino Dairy area offers a viable 
solution to the region's water woes. As former President Dwight D. 
Eisenhower once said, ``We need a farsighted program for meeting urgent 
water needs by converting saltwater to fresh water.'' Once deemed 
impractical and costly, desalinization has evolved into one of 
America's most effective and reliable solutions to water shortage. The 
project provided for in H.R. 142 would expand groundwater desalination 
in the Chino Basin from the current 9,000 acre feet per year to 40,000 
acre feet per year, which would provide a vital new drinking water 
supply for a rapidly increasing population in San Bernardino County.
    Finally, H.R. 142 provides a means to safely and efficiently 
discard excess brine from desalinization plants. Specifically, this 
legislation calls for the construction of a regional line to transport 
excess brine to the Pacific Ocean, where it can be safely filtered 
through an ocean-outfall pump station. This will prevent many of the 
environmental hazards that can occur from inadequate disposal of excess 
brine, thus benefitting the quality of life of the over six million 
residents of Orange, Riverside and San Bernardino counties.
    I believe Mr. Atwater and Mr. Grindstaff will illuminate the 
critical need for these projects in southern California and I welcome 
them to the Committee today. I thank the Chairman for his continued 
leadership and dedication to addressing southern California's critical 
water shortage needs. I urge the Committee to move expeditiously on 
this important legislation.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman for your testimony. We 
will work on this legislation together and hopefully be able to 
get it passed.
    Next, Congresswoman Loretta Sanchez, also my neighbor to 
the Southwest.

STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. SANCHEZ. Thank you, Mr. Chairman, and first, I would 
like to thank you and also Ranking Member Napolitano for 
convening today's hearing and allowing us to bring forward 
these bills and get a hearing on them. I only hope that we are 
as lucky with your push to get a markup on these so that we can 
get them signed into law.
    This hearing is an important step toward addressing 
Southern California's water supply and water quality needs. The 
legislation, H.R. 1156, would authorize the Federal Government 
to provide increased assistance for the ongoing construction of 
Orange County Water District's water reuse project, what we 
call the Groundwater Replenishment System.
    Today, you will hear from Mr. Denis Bilodeau, the President 
of the Board of Directors of the Orange County Water District. 
He will speak to the importance of this project and he will 
emphasize the need for increased Federal assistance. The Orange 
County Water District is not only responsible for providing 
Orange County constituents with their drinking water, it is 
also responsible for managing one of the largest water basins 
in California.
    He was elected to the Orange County Water District Board of 
Directors in November of 2000 and he currently sits as the 
President of that board. As a licensed civil engineer, he is 
ideally suited to comment on how this legislation would lead to 
improved capability to manage the scarce potable water supplies 
in Orange County.
    In addition to his role as the Board President, he is also 
a member of the Orange County Water Management--Waste 
Management Commission and also the Orange County Water Task 
Force He clearly has the background and the knowledge to 
highlight the importance of the regional needs and how this 
Groundwater Replenishment System will support that goal.
    I would like to take just a brief minute to explain why I 
think H.R. 1156 is so important. As any Southern Californian 
knows, we have for decades had a lack of local water resources 
in our area. This is a straightforward measure to ensure that 
the district's groundwater replenishment project already in 
development can deliver improved water supply reliability, 
enhanced economic activity to the region, and improved 
protection of our natural resources.
    The increased authorization, which is what we are asking--
that is what the bill is about--would represent an important 
commitment to providing the largest such facility in North 
America with an appropriate level of Federal support. 
Furthermore, securing an equitable Federal share would 
guarantee that this project, which is proceeding in 
construction, is funded in a manner consistent with other Title 
XIV type project authorizations.
    The members of this Subcommittee, particularly you, Mr. 
Chairman and Mrs. Napolitano, have been tireless in advocating 
for maintaining a strong Federal role in the development of 
alternative water development projects. You have supported a 
Groundwater Replenishment System in the past. That has been 
vital to its progress to date and I hope that we can continue 
to support it in the future. This project will provide reliable 
water supply to meet the ever-growing demand in Orange County 
in Southern California.
    Again, I look forward to hearing the testimony and to the 
Subcommittee's swift consideration of bringing this legislation 
forward, Mr. Chairman, and thank you again for allowing us to 
have this hearing.
    [The prepared statement of Ms. Sanchez follows:]

    Statement of The Honorable Loretta Sanchez, a Representative in 
          Congress from the State of California, on H.R. 1156

    Thank you Mr. Chairman.
    First, I would like to thank you and Ranking Member Napolitano for 
convening today's hearing to consider vital water reclamation 
legislation. This hearing is an important step toward addressing 
Southern California's water supply and water quality needs.
    My legislation, H.R. 1156, would authorize the federal government 
to provide increased assistance to the ongoing construction of Orange 
County Water District's water reuse project known as the Groundwater 
Replenishment System. I am hopeful that after today's hearing, this 
Subcommittee will move expeditiously to markup the bill and permit 
floor passage without delay.
    Today you will hear from Mr. Denis Bilodeau, President of the Board 
of Directors of Orange County Water District. Mr. Bilodeau will speak 
to the importance of this project and emphasize the need for increased 
federal assistance. The Orange County Water District is not only 
responsible for providing Orange County constituents with their 
drinking water, it is responsible for managing one of the largest water 
basins in California.
    Mr. Bilodeau was elected to the Orange County Water District Board 
of Directors in November 2000 and last year was selected by his 
colleagues to serve as President. As a licensed civil engineer, he is 
ideally suited to comment on how this legislation would lead to an 
improved capability to manage the District's scarce potable water 
supplies. In addition to his role as Board President, Mr. Bilodeau is 
also a member of the Orange County Waste Management Commission and the 
Orange County Water Task Force. He clearly has the background and 
knowledge to highlight the importance of meeting regional needs and how 
the Groundwater Replenishment System will support that goal. I look 
forward to his testimony.
    Mr. Chairman, I would like to take a brief moment to explain why I 
think H.R. 1156 is so important. As any Southern Californian knows, for 
decades a lack of local water resources has been one of the primary 
problems facing the region's economic future. H.R. 1156 is a 
straightforward measure to ensure that the District's Groundwater 
Replenishment project, already in development, can deliver improved 
water supply reliability, enhanced economic activity in the region, and 
improved protection of our natural resources. This increased 
authorization would represent an important commitment to providing the 
largest such facility in North America with an appropriate level of 
federal support.
    Furthermore, securing an equitable federal share would guarantee 
that this project, which is proceeding to construction, is funded in a 
manner consistent with other Title XVI type project authorizations. The 
Members of this Subcommittee, particularly you, Mr. Chairman and Ms. 
Napolitano, have been tireless advocates of maintaining a strong 
federal role in the development of alternative water development 
projects. Your past support of the Groundwater Replenishment System has 
been vital to its progress to date, and I look forward to your 
continued support.
    In summary, Mr. Chairman, this project will provide a reliable 
water supply to meet an ever-growing demand. As our region grapples 
with the realities of diminishing available potable water supplies and 
increasing demands from our citizens, industries and environment; the 
Groundwater Replenishment System provides an effective and efficient 
response. Again, I look forward to Mr. Bilodeau's statement and the 
Subcommittee's swift consideration of this legislation.
    Thank you.
                                 ______
                                 
    Mr. Calvert. I thank the gentlelady and I appreciate her 
testimony and for her bringing this good legislation forward.
    Next, we will listen to our colleague here on the dais, Mr. 
Solomon Ortiz, on H.R. 2960, concerning Brownsville, Texas, our 
favorite Texas town.

    STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Calvert. Mrs. Napolitano's hometown.
    Mr. Ortiz. That is right. That is right. Brownsville is 
very fortunate in that they get two Congressmen for the price 
of one.
    [Laughter.]
    Mr. Ortiz. We were very honored today to have these four 
members of Congress testify before this Committee today, but 
let me begin by thanking you, Mr. Chairman, and the Ranking 
Member Napolitano. Both have a unique perspective on this 
particular problem because both came to the Committee to a 
hearing that we had in the Rio Grande Valley to see the problem 
up close and personal. All South Texans are grateful to 
Chairman Calvert's leadership on this issue. We are grateful 
for your commitment to solving long-term water shortages in 
South Texas. We will continue to work together to find 
solutions to the unique situation associated with Mexico water 
debt.
    Ranking Democrat Napolitano is a native of Brownsville, 
also is known as the other Congressman from Brownsville. I just 
hope she doesn't run back in Brownsville.
    The genesis for this begins in the mid-1990s when Mexico 
failed, then repeated again and again in each successive treaty 
cycle, to fulfill the obligations under a 1944 treaty dividing 
the waters of the Rio Grande Valley, or the Rio Grande. South 
Texas is the last stop of the water of the Rio Grande as it 
flows, and without Mexico releasing their annual obligations of 
water to flow down the river, our farmers and our municipal 
water users have been devastated during the past ten, 15 years.
    We tried repeatedly and successfully to engage the United 
States State Department given this is a treaty issue, but that 
was profoundly unsatisfactory when their solution was for the 
United States to buy that water from Mexico. So we are 
continuing our legislative journey to find creative solutions 
for this continuing problem. Brownsville and Cameron County are 
left to find legislative relief from this situation anyway and 
anyplace that we can.
    One of the innovative things Brownsville is doing is 
exploring creating a river dam to catch the unused water in the 
Rio Grande Valley called the Weir Dam. We are also working with 
local irrigation districts to improve the canals and ditches 
themselves, lining them, repairing cracks to keep water that we 
have flowing normally without losing it. This Committee has 
been generous in that regard.
    H.R. 2960 makes the Brownsville Public Utilities Board 
eligible for a Federal share of Title XVI funding for design, 
planning, and construction of facilities to reclaim, reuse, and 
treat impaired waters in the Brownsville, Texas, area. The 
Public Utility Board's water supply planning includes water 
reclamation and desalination projects. I will let a very 
energetic public servant from PUB offer more detailed analysis 
of the bill, but it includes reclaiming brackish water, not 
obligated under the treaty, through desalination and building a 
pipeline to transport treated sewage for irrigation. Today, we 
will hear from a very committed South Texan to the Committee. 
He is Mr. Ed Campirano, who is with us today.
    Thank you, Mr. Chairman, for the time.
    [The prepared statement of Mr. Ortiz follows:]

   Statement of The Honorable Solomon P. Ortiz, a Representative in 
                    Congress from the State of Texas

    Let me begin by thanking Chairman Calvert and Ranking Member 
Napolitano--both have a unique perspective on this particular problem.
    Both came with the Committee to a hearing in the Rio Grande Valley 
to see a problem up close and personal; all South Texans are grateful 
to Chairman Calvert's leadership on this issue.
    We are grateful for your commitment to solving long-term water 
shortages in South Texas.
    We will continue to work together, to find solutions to the unique 
situation associated with Mexico water debt.
    Ranking Dem Napolitano is a native of Brownsville--also known as 
Brownville's Representative in Congress--her familiarity with the area 
is quite an asset for the Committee in this regard.
    The genesis for this begins in mid-1990s when Mexico failed--then 
repeatedly failed in each succeeding treaty cycle--to fulfill 
obligations under a 1944 treaty dividing the waters of the Rio Grande.
    South Texas is the last stop of the waters of the Rio Grande--and 
without Mexico releasing their annual obligation of water to flow down 
the river--our farmers and municipal water users have been devastated.
    We tried repeatedly and unsuccessfully to engage the United States 
State Department, given this is a treaty issue--but that was profoundly 
unsatisfactory given their solution was for the United States TO BUY 
THAT WATER FROM MEXICO.
    So we are continuing our legislative journey to find creative 
solutions to this continuing problem.
    Brownsville and Cameron County are left to find legislative relief 
from this situation anyway--and any place--we can.
    One of the innovative things Brownsville is doing is exploring 
creating a river dam to catch unused water in the Rio Grande, called 
the Weir Dam.
    We are also working with local irrigation districts to improve the 
canals and ditches themselves, lining them, repairing cracks--to keep 
water we do have.
    This Committee has been generous in that regard.
    H.R. 2960 makes the Brownsville Public Utilities Board (PUB) 
eligible for a federal share of Title 16 funding for design, planning 
and construction of facilities to reclaim, reuse and treat impaired 
waters in the Brownsville, Texas, area.
    PUB's water supply plan includes water reclamation and desalination 
projects.
    I will let Eddie Campirano, a very energetic public servant from 
PUB, offer more detailed analysis of the bill, but it includes: 
reclaiming brackish groundwater (not obligated under the treaty) 
through desalination--AND building a pipeline to transport treated 
sewage for irrigation.
    Today, we will hear from a very committed South Texan to the 
Committee.
    Eddie Campirano is the Assistant General Manager for the 
Brownsville PUB and will expand on the bill.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Mr. Calvert. Now, I would like to recognize our next 
witness, Mr. William Rinne. This is our panel of one here. Oh, 
we will have everybody come on up, I guess. Excuse me.
    Mr. William Rinne is the Deputy Commissioner of Operations, 
Bureau of Reclamation. Also with us today is Mr. Richard 
Atwater, CEO and General Manager of the Inland Empire Utilities 
Agency. Testifying on behalf of H.R. 1156 is Mr. Denis 
Bilodeau, President of the Board of Directors of the Orange 
County Water District. Testifying on behalf of H.R. 2960, as 
Mr. Ortiz recognized, is Mr. Eduardo A. Campirano, Brownsville 
Public Utilities Board. And testifying on behalf of H.R. 2991 
is Mr. Robert DeLoach, CEO and General Manager of the Cucamonga 
County Water District.
    Everybody has their chairs. I would be pleased to now 
recognize Mr. Rinne for his opening statement. Please try to 
stay, by the way, on these opening statements, within the 5-
minute rule. Certainly, your full comments will be entered into 
the record. With that, Mr. Rinne, you are recognized for 5 
minutes.

 STATEMENT OF WILLIAM RINNE, DEPUTY COMMISSIONER, OPERATIONS, 
                     BUREAU OF RECLAMATION

    Mr. Rinne. Thank you, Mr. Chairman. My name is William 
Rinne, the Deputy Commissioner for Operations for the Bureau of 
Reclamation. I am pleased to present the views of the 
Department of Interior on H.R. 142, H.R. 1156, H.R. 2960, and 
H.R. 2991, all amending the Reclamation Wastewater and 
Groundwater Study and Facilities Act, commonly known as Title 
XVI. I prepared four written statements, and in the interest of 
time ask that they all be entered into the record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Rinne. Mr. Chairman, inasmuch as these four bills amend 
the same law and our comments are similar on all four 
proposals, I will be providing a general statement and then 
mention some additional comments relative to a few of the 
bills.
    H.R. 142 would amend Title XVI to authorize the Secretary 
of Interior to participate in the Inland Empirial regional 
water recycling project. The bill would also authorize the 
Secretary to carry out a program to assist agencies in projects 
to construct regional brine lines in California and to 
authorize the Secretary to participate in the Lower Chino Dairy 
desalination demonstration and reclamation project.
    H.R. 1156 would specifically amend Section 1631(d) of Title 
XVI to authorize the Secretary of Interior to increase the 
Federal share of the cost of Phase I of the Orange County 
regional water reclamation project from its current cap of $20 
million to $80 million. As you are aware, current Federal law 
limits the Federal share of the individual project cost to 25 
percent of total project costs, for a maximum Federal 
contribution of $20 million.
    H.R. 2960 would amend Title XVI to authorize the Secretary, 
in cooperation with Brownsville Public Utility Board, to 
participate in design, planning, and construction of facilities 
to reclaim, reuse, and treat impaired waters in the 
Brownsville, Texas, area.
    And finally, H.R. 2991 would amend Title XVI to authorize 
the Secretary to participate in the Inland Empire regional 
recycling project, virtually the same as to H.R. 142. The bill 
would also authorize the Cucamonga County Water District to 
pilot a recycling plant.
    Mr. Chairman and members of the Subcommittee, the 
Department has consistently testified before this Subcommittee 
that we have a great deal of concern about authorizing new 
Title XVI projects due to the large number of existing 
authorized projects with a potential Federal contribution of at 
least $580 million. With Reclamation's already tight budget, 
the addition of more projects makes it even more difficult to 
meet our current obligations.
    Additionally, while I commend those project sponsors that 
have worked with Reclamation on preliminary work prior to 
authorization, the Department has concerns that none of the new 
projects before you today have undergone complete feasibility 
analysis, which includes things like environmental review. The 
Department believes it is essential to complete the feasibility 
studies to fully inform Congress, the project sponsors, and the 
Department itself about vital project information such as cost, 
project features, environmental impacts, et cetera prior to any 
consideration of authorization.
    Primarily for these reasons, the Department cannot support 
H.R. 142, H.R. 1156, H.R. 2960, and H.R. 2991. In addition to 
the general concerns I just mentioned, there are a few specific 
comments I would like to make about some of the bills.
    Section 2 and 3 of H.R. 142 deviate from the Title XVI 
statute capping the Federal cost share at $20 million. These 
sections propose to increase the Federal cost share at 25 
percent, or $50 million. The Department does not believe that 
there is justification to support altering the statutory cap on 
these projects, particularly since they have not been 
previously authorized or currently under consideration.
    With respect to H.R. 1156, through Fiscal Year 2003, 
Reclamation will have spent approximately $8 million in Phase 
I. This leaves around $12 million in Federal funds still 
available for this project. The project is currently on 
schedule to be completed sometime in 2007. Given the fact that 
Phase I of the project is not scheduled to be completed until 
2007 and there remains approximately $12 million still 
available, the Department believes a Federal cost share 
increase is unwarranted and inconsistent with the Title XVI Act 
limiting the Federal cost share to $20 million.
    In summary, the Department strongly encourages local water 
recycling and desalination efforts and is engaged in numerous 
water reuse and recycling projects around the West. However, 
for the reasons previously mentioned, we cannot support the 
bills before you today.
    Thank you for the opportunity to comment on these bills 
today, Mr. Chairman, and this concludes my statement. I would 
be happy to answer any questions.
    [The prepared statement of Mr. Rinne on H.R. 142 follows:]

           Statement of William Rinne, Deputy Commissioner, 
         Bureau of Reclamation, U.S. Department of the Interior

    My name is William Rinne and I am Deputy Commissioner for the 
Bureau of Reclamation. I am pleased to present the views of the 
Department of the Interior on H.R. 142, authorizing Reclamation to 
participate in various reuse and desalination projects in the State of 
California.
    H.R. 142 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575 and commonly known as 
Title XVI), authorizing the Secretary of the Interior to participate in 
the Inland Empire Regional Water Recycling Project. The bill would also 
authorize the Secretary to carry out a program to assist agencies in 
projects to construct regional brine lines in California, and to 
authorize the Secretary to participate in the Lower Chino Dairy 
desalination demonstration and reclamation project.
    Section 1 of the bill amends Title XVI to authorize the Secretary 
of the Interior to participate in design, planning and construction of 
the Inland Empire Regional Water Recycling Project.
    Section 2 of H.R. 142 amends Title XVI to authorize regional brine 
lines in Southern California.
    Section 3 of the bill authorizes the Secretary, in cooperation with 
the Chino Basin Watermaster, the Inland Empire Utilities Agency, the 
Western Municipal Water District, and the Santa Ana Watershed Project 
Authority, acting under federal reclamation laws, to participate in the 
design, planning and construction of the Lower Chino Dairy Area 
desalination demonstration and reclamation project.
    As the Department has consistently stated in previous testimony, it 
does not believe it is prudent to authorize new projects Title XVI 
projects while there is a major backlog of projects that already exist. 
The Department also believes enactment of this legislation authorizing 
new construction projects is likely to place an additional burden on 
Reclamation's already tight budget. For these reasons, the Department 
cannot support H.R. 142.
    In addition to the ongoing concerns I just mentioned, Section 2 and 
Section 3 of the bill deviate from the Title XVI statute capping the 
federal cost share at $20 million. These sections have increased the 
federal cost share cap to $50 million. The Department does not believe 
there is justification to support raising the cap on these projects, 
particularly since they have not yet been previously authorized or are 
not currently under construction.
    The economic and efficient use of water is a priority for the 
Department of Interior. The Department strongly encourages local water 
recycling and desalination efforts. Partnering with state and local 
governments is in accord with the Secretary's Water 2025 framework for 
anticipating water supply crises and preventing them through 
communication, consultation and cooperation, in service of 
conservation.
    Thank you for the opportunity to comment on H.R. 142. This 
concludes my statement and I would be happy to answer any questions.
                                 ______
                                 
    [The prepared statement of Mr. Rinne on H.R. 1156 follows:]

     Statement of William Rinne, Deputy Commissioner, Operations, 
         Bureau of Reclamation, U.S. Department of the Interior

    My name is William Rinne and I am Deputy Commissioner, Operations 
for the Bureau of Reclamation. I am pleased to present the views of the 
Department of the Interior on H.R. 1156, a proposal to increase the 
federal share of the costs of Phase I of the Orange County, California, 
Regional Water Reclamation project.
    H.R. 1156 would amend Section 1631(d) of Title XVI, the Reclamation 
Wastewater and Groundwater Study and Facilities Act, of Public Law 102-
575, the Reclamation Projects and Authorization Adjustment Act of 1992, 
to authorize the Secretary of the Interior to increase the federal 
share of the costs of Phase I to no more than $80 million. As you are 
aware, current federal law limits the federal share of individual 
project costs to 25 percent of the total, or a maximum federal 
contribution of $20 million.
    This project is being constructed in three phases. When completed, 
the first phase will produce about 60,000 acre-feet per year of water 
to recharge the region's groundwater basin. Currently, the project is 
about 10 percent complete. To date, Reclamation is only authorized to 
participate in the first phase of the project. Through Fiscal Year 
2003, Reclamation will have spent approximately $8 million on Phase I--
leaving about $12 million in federal funds still available for this 
project through 2007.
    In this context, the Department believes that this legislation, 
which would authorize another $60 million, is unwarranted at this time 
and therefore, we cannot support its approval. Furthermore, of the 
currently authorized Title XVI projects, only four have received full 
funding of the maximum federal share--and more than $580 million in 
federal funding would be needed to fully fund the Federal portion the 
remaining projects. As Reclamation has testified before in this 
Subcommittee, the Department believes it is prudent to complete 
currently authorized projects before authorizing additional projects or 
increasing the Federal cost share of existing projects.
    The economic and efficient use of water is a priority for the 
Department of Interior. The Department strongly encourages local water 
recycling and desalination efforts. Partnering with state and local 
governments is in accord with the Secretary's Water 2025 framework for 
anticipating water supply crises and preventing them through 
communication, consultation and cooperation, in service of 
conservation.
    Thank you for the opportunity to comment on H.R. 1156. This 
concludes my statement and I would be happy to answer any questions.
                                 ______
                                 
    [The prepared statement of Mr. Rinne on H.R. 2960 follows:]

     Statement of William Rinne, Deputy Commissioner, Operations, 
         Bureau of Reclamation, U.S. Department of the Interior

    My name is William Rinne and I am the Deputy Commissioner, 
Operations, of the Bureau of Reclamation. I am pleased to present the 
views of the Department of the Interior on H.R. 2960, concerning the 
Brownsville Public Utility Board water recycling and desalinization 
project in the State of Texas.
    H.R. 2960 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575) to authorize the 
Secretary of the Interior, in cooperation with the Brownsville Public 
Utility Board (BPUB), to participate in the design, planning and 
construction of facilities to reclaim, reuse and treat impaired waters 
in the Brownsville, Texas, area. As you know, the Federal share of 
project costs is limited to a maximum of 25 percent of the total, and 
the Secretary is prohibited from funding the operation and maintenance 
of the project.
    All projects implemented pursuant to Title XVI require that a 
feasibility study be conducted by Reclamation or the non-Federal 
project sponsor. Reclamation has completed an appraisal study with the 
Brownsville Public Utilities Board and is currently beginning a 
feasibility study to more completely assess which of the proposed 
actions would be the best to implement. Reclamation commends the 
project sponsors for their work with us prior to authorization in 
completing the appraisal study and beginning the feasibility study. 
However, it is essential to complete the feasibility study to fully 
inform Congress, the project sponsors and the Administration regarding 
vital project information such as costs, project features, benefits, 
and other factors, before the project can be authorized. Completion of 
the feasibility study prior to authorization of construction is a 
necessary component of informed decision making.
    Moreover, enactment of this legislation authorizing new 
construction projects will place an additional burden on Reclamation's 
already oversubscribed budget. In light of the tremendous backlog of 
currently authorized Title XVI projects, we cannot support H.R. 2960 at 
this time.
    The economic and efficient use of water is a priority for the 
Department of Interior. The Department strongly encourages local water 
recycling and desalination efforts. Partnering with state and local 
governments is in accord with the Secretary's Water 2025 framework for 
anticipating water supply crises and preventing them through 
communication, consultation and cooperation, in service of 
conservation.
    Thank you for the opportunity to comment on H.R. 2960. This 
concludes my statement and I would be happy to answer any questions.
                                 ______
                                 
    [The prepared statement of Mr. Rinne on H.R. 2991 follows:]

     Statement of William Rinne, Deputy Commissioner, Operations, 
         Bureau of Reclamation, U.S. Department of the Interior

    My name is William Rinne and I am Deputy Commissioner, Operations, 
for the Bureau of Reclamation. I am pleased to present the views of the 
Department of the Interior on H.R. 2991, a bill to authorize the Inland 
Empire and Cucamonga County recycling projects. H.R. 2991 would amend 
Title XVI, the Reclamation Wastewater and Groundwater Study and 
Facilities Act (P.L. 102-575) to include design, planning and 
construction authority for these two projects.
    The bill would authorize the Inland Empire recycling project with a 
Federal cost share not to exceed 25 percent, and a funding 
authorization of $20 million. The bill would also authorize the 
Cucamonga County Water District Pilot Satellite Recycling Plant with a 
Federal cost share not to exceed 25 percent, and a funding 
authorization of $10 million. The local water district had a 
feasibility report prepared that reviewed the proposed regional plans 
for the area and recommended, among other things, a more localized 
recycling system consisting of several smaller plants located closer to 
their demand centers.
    The Department cannot support enactment of this legislation for two 
primary reasons. First, any new project authorized at this time will 
place an additional burden on Reclamation's already tight budget, and 
could potentially delay the completion of other currently authorized 
projects. With the tremendous backlog of existing Title XVI projects, 
we cannot support the addition of new projects at this time. Second, in 
the case of the Cucamonga County Water District Pilot Satellite 
Recycling Plant, the feasibility study prepared by the local water 
district was not done in consultation with Reclamation and thus would 
need to be reviewed to assure it meets our criteria.
    The economic and efficient use of water is a priority for the 
Department of Interior. The Department strongly encourages local water 
recycling and desalination efforts. Partnering with state and local 
governments is in accord with the Secretary's Water 2025 framework for 
anticipating water supply crises and preventing them through 
communication, consultation and cooperation, in service of 
conservation.
    Thank you for the opportunity to comment on H.R. 2991. That 
concludes my statement and I would be happy to answer any questions.
                                 ______
                                 
    Mr. Calvert. Testifying on behalf of H.R. 142 and H.R. 2991 
is Mr. Richard Atwater. Mr. Atwater, you are recognized for 5 
minutes.

       STATEMENT OF RICHARD W. ATWATER, GENERAL MANAGER, 
                 INLAND EMPIRE UTILITIES AGENCY

    Mr. Atwater. Thank you very much, Chairman Calvert and 
members of the Committee. It is my pleasure to be here today. 
In the past, I have testified in front of the Committee, going 
back the last few years when Congressman Calvert held field 
hearings in Southern California about the water problems. I 
think the record is clear about the opportunities to develop 
new local supplies in Southern California.
    And let me just say on behalf of my Board of Directors and 
Joe Grindstaff and the Santa Ana Watershed Project Authority, 
which we are a member of, Joe couldn't make it today, but we 
strongly want to endorse the three Southern California bills, 
but certainly the ones that directly affect my service area, 
both H.R. 142 and H.R. 2991.
    Let me just stop for a moment and talk about the big 
picture. These projects represent within the Santa Ana 
watershed, as the Chairman and the Ranking Member well know 
through their field hearings and previous hearings on water 
recycling and desalination, a strategy that throughout Southern 
California and Statewide is the most significant new supply 
available to California.
    Let me just highlight, first, since this isn't just 
Commissioner Bill Rinne's statement, I would like to just enter 
for the record, and since Bill and I used to work at the Bureau 
of Reclamation in the 1980s, we talked about it. Let me just 
say that in 1992, I was working very closely with this 
Committee when we passed Title XVI and was General Manager of 
Western Central Basin, which I think many people would 
recognize as probably the most successful Title XVI projects 
that were authorized, the largest, and initiated the Southern 
California regional study. As a member of the Board of 
Directors of the Water Reuse Association and the California 
Water Commission, very familiar with the Bay Area study, I 
would like to ask to enter in the record, since in Southern 
California a local sponsor spent over $3.5 million to prepare 
this study over the last 10 years, and in the Bay Area, about 
$1.5 million. We would certainly like to submit the Southern 
California Comprehensive Water Reclamation Reuse Study that you 
requested for the record. It is a feasibility study.
    Our projects that we are submitting under H.R. 142 and H.R. 
2991 are consistent with the feasibility study. They track with 
it nicely. And, by the way, we have fully complied with the 
California Environmental Quality Act. We have completed all the 
environmental reports for these projects and they are broadly 
supported by the public, editorial boards, mayors, local 
districts, the environmental community. We have businessmen who 
are demanding the use of recycled water.
    So I just for the record would like to ask if the Chairman 
would--
    Mr. Calvert. Without objection, the report is made part of 
the record.
    [NOTE: The report, ``Southern California Comprehensive 
Water Reclamation and Reuse Study, Phase II,'' has been 
retained in the Committee's official files.]
    Mr. Atwater. The second thing I would like to highlight is 
that we identified in Southern California, not just my service 
area but throughout Southern California, that we could develop 
by 2010 over 450,000 acre feet of new water. In the last week, 
we have heard some good news about the Colorado River QSA, but 
let me just remind everybody with the QSA and what is occurring 
on the Colorado River. It means that the Metropolitan Water 
District will have an aqueduct that is not full, 1.2 million 
acre feet, but an average flow of 700,000 acre feet.
    What we are doing with that report that you have in front 
of you, we could implement, we could offset that loss from the 
Colorado River. To put things in perspective--the Federal 
investment is much less than 20 percent. Let me illustrate by 
example.
    In H.R. 142 and in H.R. 2991, we are talking about 70,000 
acre feet in the Inland Empire area. We are going to invest 
$125 million and the Federal cap is $20 million. That is a 15 
percent cost share to develop 70,000 acre feet of new water.
    The channel desalters the Assistant Commissioner referred 
to and the rationale for the 50 percent models exactly the 
language in 1996 when you reauthorized Title XVI for the Long 
Beach desalination project, so that language does mirror that. 
I would certainly be happy to work with the Committee to make 
sure that it is consistent with cost sharing policies.
    But let me just highlight that through desalination and 
water recycling in Southern California, we could develop over 
three-quarters of a million acre feet of water. And in fact, in 
May, the California Water Recycling Task Force published a 
report, and we would be happy to submit it for the record. The 
report identified over 1.5 million acre feet Statewide and it 
is being included in the California water plan, which the 
Bureau of Reclamation is participating in and was part of that 
group. The report also identified 1.5 million acre feet of 
potential throughout the State through these efforts under 
Title XVI.
    And I must say, Chairman Calvert's new legislation really 
would provide an opportunity to implement this not just in 
California, but as a member of the Water Reuse Association, I 
think in Arizona, Nevada, New Mexico, Texas and Florida. If you 
look nationally, there really is a huge opportunity to develop 
new supplies in a very cost effective way.
    With that, I see that my time is over. Let me just ask that 
my written testimony be entered in the record and I would be 
more than happy to answer any questions that you may have.
    Mr. Calvert. Just for your attention is that the record 
will be held open for 10 days for any additional information, 
and certainly your full written comments will be made part of 
the record.
    Mrs. Napolitano. Mr. Chair, can we also ask for a copy of 
that report he is talking about that just was completed that he 
will submit?
    Mr. Calvert. We will make sure that you are given a copy of 
that report.
    Mr. Atwater. Absolutely.
    Mr. Calvert. It will be made part of the record within 10 
days, and I will make sure it is distributed.
    [NOTE: The California Water Recycling Task Force report has 
been retained in the Committee's official files.]
    [The prepared statement of Mr. Atwater follows:]

           Statement of Richard W. Atwater, General Manager, 
                     Inland Empire Utilities Agency

I. Introduction
    Thank you Mr. Chairman Ken Calvert and members of the Subcommittee 
for Water and Power for the opportunity to testify today regarding the 
water problems facing Southern California. I am the General Manager of 
the Inland Empire Utilities Agency. On behalf of the Board of 
Director's of the Inland Empire Utilities Agency, I am testifying today 
in support of H.R. 142 and H.R. 2991.
A. Inland Empire Utilities Agency/Chino Basin
    The Inland Empire Utilities Agency, a municipal water district 
under California law, was formed in 1950 by a popular vote of its 
residents. The service area of the Agency is entirely in San Bernardino 
County and has a current population of approximately 700,000. The IEUA 
service area is rapidly growing and will probably double in population 
within the next 20 years. The Chino Basin also has 350,000 dairy cows, 
the most densely concentrated population of dairy cows in North 
America. Overall water use is about 350,000 acre-feet annually, 70 
percent of the supplies are from local sources within the Santa Ana 
Watershed. With the rapid growth, demand from MWD could increase from 
70,000 acre-feet per year currently to 200,000 acre-feet in 2020! 
However IEUA, Chino Basin Watermaster and in cooperation with many 
other agencies have developed a ``Drought Proof Plan'' that will 
develop over 100,000 acre-feet of new local supplies to minimize the 
need for additional imported water from MWD.
B. Background and Interagency Relationships
    The Inland Empire Utilities Agency has been a member agency of the 
Metropolitan Water District since 1950 and distributes about 70,000 
acre-feet of imported water to the cities of Chino, Chino Hills, 
Fontana (through the Fontana Water Company), Ontario, Upland, 
Montclair, Rancho Cucamonga (through the Cucamonga County Water 
District), and the Monte Vista Water District. The Agency also provides 
wastewater treatment service (four regional water recycling plants that 
produce about 60 million gallons per day or 63,000 acre-feet per year). 
Excess recycled water flows downstream into the Santa Ana River and the 
Orange County Water District recharges that water into the Orange 
County groundwater basin for drinking water.
    The Agency is also a member of the Santa Ana Watershed Project 
Authority (SAWPA) and is an active member of the Santa Ana River 
Watershed Group and the Chino Basin Watermaster. As a member agency of 
SAWPA, the Agency's water projects are closely coordinated with the 
SAWPA watershed wide planning and the funding of priority projects 
through the Water Bond Prop.13 grants.
Public and Private Partnerships to Improve the Santa Ana Watershed
    <bullet> SAWPA and the Santa Ana River Watershed Group have 
maintained an inclusive dialogue with all interested parties;
    <bullet> All local governments within the three counties (San 
Bernardino, Riverside and Orange) are working cooperatively together to 
manage growth and plan for the water/wastewater infrastructure needed 
to meet the needs of this rapidly urbanizing watershed;
    <bullet> Partnerships with industry including dairies, 
manufacturing, and developers have resulted in creative solutions to 
local water quality problems (e.g. the Santa Ana brine sewer to the 
ocean);
    <bullet> Industrial customers throughout the area are planning on 
using recycled water to reduce costs, ensure reliability, and to be 
excellent environmental stewards.
    The Chino groundwater basin is one of the largest in Southern 
California. The Chino Basin Watermaster adopted an Optimum Basin 
Management Plan to protect the water quality of the basin and to manage 
the local supplies effectively to the maximum benefit of the local 
ratepayers. A key element is the expansion of the conjunctive use 
operation of the Chino Basin to expand the storage and recovery by 
approximately 500,000 to 1,000,000 acre feet, roughly equivalent to the 
$2 billion Diamond Valley reservoir built by MWD.
    Other key components are the Inland Empire Utilities Agency 
regional water recycling project to develop new local supply 70,000 
acre-feet per year and the Chino Basin desalters that would develop an 
additional new local supply of 40,000 acre-feet per year.
    The key benefits of the Chino Basin regional ``OBMP'' water plan 
are as follows:
Benefits
    <bullet> Provide a more dependable local water supply and reduce 
the likelihood of water rationing during future droughts;
    <bullet> Lower cost of water to industry and provide incentives to 
attract new industry and jobs in the Inland Empire region;
    <bullet> Environmental protection--reduce wastewater discharges 
into Santa Ana River by 50 percent through local water recycling and 
protect Orange County drinking water supplies through implementation of 
comprehensive lower Chino Dairy area manure management strategy;
    <bullet> Reduce imported water use in the rapidly growing Inland 
Empire region (upper Santa Ana River Watershed) and thereby contribute 
in a significant manner to the statewide CALFED Bay-Delta and Colorado 
River solutions through more efficient use of existing local supplies;
    <bullet> Assist in solving multiple Endangered Species Act 
problems within the Santa Ana Watershed, the CALFED Bay-Delta program, 
and the Colorado River/Salton Sea; and
    <bullet> Implement a sustainable long-term water resources 
management program that maintains the salt balance of the Santa Ana 
River watershed.
II. Chino Basin OBMP ``Drought Proofing Strategy''
    The IEUA Urban Water Management Plan, adopted in December 2000 and 
the Chino Basin Watermaster Optimum Basin Management Plan adopted in 
July 2000, document the overall strategy for improving the water supply 
reliability in the Chino Basin area.
    <bullet> Water Conservation
    <bullet> Water Recycling
    <bullet> Local Groundwater Storage and Conjunctive Use
    <bullet> Groundwater Cleanup
    <bullet> Storm water
    <bullet> Renewable Energy and Organics Recycling
    <bullet> Water Quality Management
A. Water Conservation- (35,000 acre-feet per year, 10 percent of 
        overall use)
    IEUA and its retail utilities are committed to implementing the 
Memorandum of Understanding (MOU) regarding Urban Water Conservation in 
California. IEUA is an active member of the California Urban Water 
Conservation Council (CUWCC). Currently, the Agency is expanding its 
conservation efforts to promote both water and energy conservation 
programs to our customers. IEUA's goal is to reduce water demands by 10 
percent (35,000 acre-feet per year) through aggressive implementation 
of customer conservation programs. IEUA has initiated a number of new 
innovative programs, including water brooms, outdoor native landscape 
policy and rebates for x-ray machines besides promoting many 
residential and school conservation programs.
B. Water Recycling (70,000 acre-feet by 2010)
    IEUA owns and operates four water recycling plants that produce 
high quality water that meets all state and federal requirements for 
non-potable landscape irrigation, industrial uses, and groundwater 
replenishment. The Agency recycles about 6,000 acre-feet annually and 
has a plan to increase to approximately 70,000 acre-feet annually over 
the next decade by constructing ``purple'' recycled water pipeline 
system to hookup existing large customers (Inland Paper, golf courses, 
city parks, Reliant power plant).
    Blend recycled water with storm water and imported water in a 
coordinated fashion with flood control district to ensure that all 
water is conserved and replenishes the Chino Basin in an optimal manner 
(targeted goal is an additional recharge of 80,000 acre-feet per year).
    Build in the future new smaller water recycling plants in the 
northern part of our service area to provide recycled water to 
communities (Upland, Fontana, and Rancho Cucamonga) without the need to 
pump the water to them. The Cucamonga County Water District (CCWD) 
proposed satellite plant authorized by H.R. 2991 would be the prototype 
water recycling plant to reduce energy use of pumping recycled water to 
the higher elevations along the San Gabriel Mountains.
    Coordinate with cities and developers on new urban development 
projects so that dual ``purple'' piping is installed up-front to 
maximize non-potable uses with recycled water.
C. Local Groundwater Storage and Conjunctive Use (500,000 acre-feet of 
        new storage by 2010)
    Without the Chino Basin area, the Watermaster is implementing an 
Optimum Basin Management Plan to enhance the conjunctive use storage of 
the Chino Basin. The Optimum Basin Management Program developed over 
the past two years by the Chino Basin Watermaster would implement a 
comprehensive water resources management strategy to drought proof the 
area and enhance the yield of the groundwater basin. The Chino Basin 
Watermaster has developed a conjunctive use program to store 500,000--
1,000,000 acre-feet of imported water in wet years for drought year 
withdrawal for both local, regional and statewide availability. In 
June, 2003 IEUA, Chino Basin Watermaster, Three Valleys MWD and the 
Metropolitan Water District executed an agreement for the initial 
100,000 acre-feet of storage and recovery projects ($27.5 million 
funding from MWD and Calif. DWR).
D. Groundwater Cleanup (40,000 to 50,000 acre-feet annually by 2020)
    Historically, Colorado River water (relatively high salinity) and 
agricultural practices have caused areas of the Chino Basin to have 
high salts that make the water unfit for domestic uses. To correct this 
problem and to recover this poor quality water, the Chino Basin Optimum 
Management Plan recommends implementation of groundwater cleanup 
projects to pump and treat poor quality groundwater to meet drinking 
water standards.
    Additionally, the desalination projects of the lower Chino Basin 
area will protect and enhance the water quality of the Santa Ana River 
and the downstream use by Orange County. H.R. 142 would provide 
authorization under the Bureau of Reclamation's Title XVI program to 
provide funding for the third Chino desalter and brine line 
improvements with the SAWPA SARI brine system recommended in the 
Southern California Comprehensive Water Reclamation and Reuse Study 
(USBR, 2003) and the joint MWD/USBR Salinity Management Study (1999).
Groundwater cleanup projects:
      i. LLower Chino area--groundwater desalination 40 mgd (or 
approximately 45,000 AF per year), $250 million capital improvement 
program over 20 years.
     ii. LJurupa Community Services District-emergency need to build an 
ion exchange desalination project (about 4 million gallons per day 
facility) because Riverside County residents have well water 
approaching drinking water standards for nitrates.
    iii. LCity of Chino Hills-local Chino Basin well water has elevated 
arsenic (average concentrations over five times the proposed EPA 
drinking water standard of 10 ppb).
    iv. LAdditional treatment for nitrates in groundwater in the 
communities of Chino, Ontario, Fontana, Upland, Montclair, Pomona, and 
Rancho Cucamonga is needed. Approximately six treatment plants are 
proposed that will pump and treat about 25,000 acre-feet annually of 
nitrate contaminated groundwater for municipal drinking water supplies 
through funding from the Metropolitan Water District and the California 
Dept of Water Resources).
E. Storm water (25,000 acre-feet annual average of new percolation)
    A critical issue facing the coastal plain of Southern California as 
the region continues to urbanize and hardscape our landscapes will be 
how to implement both small scale and larger scale projects for storm 
water capture to allow percolation into our groundwater basins. IEUA in 
coordination with the Chino Basin Watermaster, the San Bernardino 
County Flood Control District and the Chino Basin Water Conservation 
District is developing an integrated recharge master plan to optimize 
the capture of storm water with replenishment of imported water from 
MWD and our local recycled water to enhance the storage and recovery of 
water from the Chino Basin.
    IEUA is also sponsoring work, in part funded by the CALFED Bay-
Delta Program, with the Rocky Mountain Institute on small scale, on-
site (neighborhood development) storm water management strategies to 
enhance percolation of rainfall to minimize runoff, contamination of 
rainfall before it percolates, and cost effectively reduce flood 
control requirements.
F. Renewable Energy and Organics Management (50 megawatts of renewable 
        energy)
    The energy crisis reminds all of us working on the water problems 
facing California how incredibly dependent the imported water 
infrastructure of southern California is on cheap, low cost electricity 
to pump imported water into our region.
    IEUA in response to the energy crisis and our need to be a steward 
of our environment has developed a Chino Basin Organics Management 
Strategy that will:
    <bullet> Produce through anaerobic digestion enough methane gas 
for 50 megawatts of clean, renewable electric energy by 2006;
    <bullet> Cost effectively recycle organic wastes into fertilizer 
products in an environmentally safe manner that will reduce many 
thousands a year of long haul diesel truck trips per year;
    <bullet> Reduce significantly air and water pollution from dairy 
cow manure; and
    <bullet> Eliminate the need for electric power from the grid for 
operating the Chino Basin desalination and water recycling plants.
    IEUA and Chino Basin Watermaster are very proud of our efforts with 
the Milk Producers Council to develop these innovative dairy manure to 
energy/clean air/clean water projects.
G. Water Quality Management (natural treatment of Santa Ana River base 
        flow)
    IEUA and Orange County Water District executed a Memorandum of 
Understanding in October 2002 to cooperate in water quality management 
issues in the Prado wetlands area. Current projects include Chino Creek 
watershed planning, hydrologic control of the lower Chino Basin, 
expanded natural wetlands to treat urban runoff and dairy washwater. 
OCWD's goal is to have the total flow of the Santa Ana River be treated 
with natural wetlands within the Prado Dam ``flood pool''.
    Within H.R. 142, IEUA would recommend that a new provision be 
included to add authorization for the Prado ``natural wetlands 
treatment'' project.
III. IEUA Proposed Regional Water Recycling Projects--H.R. 2991/H.R. 
        142
    In August, 2002 the Board of Directors of the Inland Empire 
Utilities Agency, after receiving approval and endorsement by the Chino 
Basin Watermaster, SAWPA and all the local cities and retail water 
agencies within its service area adopted its Regional Water Recycling 
Feasibility Study and certified the Environmental Impact Report. The 
feasibility study fully complied with the U.S. Bureau of Reclamation's 
guidelines for Title XVI Projects (December 1998) and is consistent 
with the regional water plans for southern California.
    <bullet> USBR's Southern California Comprehensive Water 
Reclamation and Reuse Study
    <bullet> MWD's Integrated Water Resources Plan
    <bullet> SAWPA's Comprehensive Watershed Plan
    <bullet> SARWQCB Santa Ana River Basin Plan
    <bullet> California Water Recycling Task Force Report
    <bullet> MWD/USBR Salinity Management Study
    <bullet> California Water Plan, Bulletin 160
Need for Proposed Recycled Program
    <bullet> Provide a more dependable local supply and reduce the 
likelihood of water rationing during future droughts, lower cost of 
water and sewer rates to customers, and economic development incentives 
to attract new jobs and industry in the Inland Empire Region of 
southern California.
    <bullet> Consistent with Legislative Policy (Water Code 13550), 
State Water Plan and California Water Resources Control Board (SWRCB) 
policies.
    <bullet> Consistent with CALFED Bay-Delta Water Use Efficiency 
Program and Colorado River 4.4 Plan.
    <bullet> Consistent with Metropolitan Water District's (MWD) 
Integrated Water Resources Plan (1996) and U.S. Bureau of Reclamation's 
Southern California Comprehensive Water Reclamation and Reuse study 
(authorized by Congress in 1992).
Proposed Regional Recycled Water System
    The expansion of the Regional Recycled Water Program has been 
designed to occur in a series of five phases in order to maintain a 
balance between capital expenditures, sources of funding, and the 
development of a customer base for the delivered water. In 2001, IEUA 
conducted a market survey to identify potential customers and their 
relative demand in relation to existing treatment and distribution 
facilities. A primary recommendation from the study was that the 
expanded distribution facilities should be developed in the central 
portion of the Chino Basin where the greatest industrial demand is 
located and where the greatest number of groundwater recharge basins 
can be serviced. The construction of the pipelines will be phased so 
that the most cost-effective projects will be brought on-line first.
    IEUA evaluated the capital funding needs for the Recycled Water 
Expansion Program and determined that, with the provision of State and 
Federal funding assistance, it could be financed through the Regional 
Wastewater Treatment Program without an additional increase in the 
connection fee. This financing structure provides a significant 
opportunity for local retail agencies to implement recycled-related 
projects without the capital costs impacting the region's sewage rates 
and charges. With full implementation of the program, it is possible 
that the regional water and sewer rates could be lowered by 20-30 
percent.
    In closing, Chairman Calvert and members of the Committee I 
appreciate very much your consideration and support for H.R. 142 and 
H.R. 2991. Water recycling and groundwater desalination are critical 
new supplies for Southern California that have statewide benefits and 
also help solve the Colorado River issues for all seven basin states. 
The federal government through the U.S. Department of the Interior 
since the Colorado River Compact in 1922 and the authorization of the 
Boulder Canyon Project Act in 1928 supported the development of 
supplies on the Colorado River Basin to meet the economic needs of all 
the residents of the arid southwest. It was this Committee in 1968 that 
in the Central Arizona Project Act that made it federal policy to 
explore options to augment the supplies of the Colorado River to meet 
the future needs of the Lower Basin States (Arizona, Nevada and 
California). Clearly, water recycling and desalting in Las Vegas, 
Phoenix, Tucson and throughout Southern California have the potential 
to be a significant portion of the new supply developed to meet the 
statutory requirements of the 1968 Act authorizing the CAP. It is 
imperative for the Bureau of Reclamation to provide the technical 
leadership and to increase funding through Title XVI to assist in 
meeting these critical water supply issues facing the arid southwest 
portion of the United States. 
[GRAPHIC] [TIFF OMITTED] T9270.001

[GRAPHIC] [TIFF OMITTED] T9270.002

[GRAPHIC] [TIFF OMITTED] T9270.003

[GRAPHIC] [TIFF OMITTED] T9270.004

[GRAPHIC] [TIFF OMITTED] T9270.005


    Mr. Calvert. Next, Mr. Denis Bilodeau, President of the 
Board of Directors, Orange County Water District, testifying on 
behalf of H.R. 1156. Thank you for your attendance. You are 
recognized for 5 minutes.

STATEMENT OF DENIS R. BILODEAU, PRESIDENT, BOARD OF DIRECTORS, 
                  ORANGE COUNTY WATER DISTRICT

    Mr. Bilodeau. Thank you, Mr. Chairman and Ranking Member 
Napolitano and other distinguished members of the Subcommittee 
for Water and Power, for this opportunity to testify today 
regarding California water issues.
    My name is Denis Bilodeau. Currently, I have the privilege 
of serving as the President of the Board of Directors of the 
Orange County Water District. I appreciate the opportunity to 
testify before you today in support of H.R. 1156, to amend the 
Reclamation Wastewater and Groundwater Study and Facilities Act 
to increase the ceiling on the Federal share of the costs of 
Phase I of the Orange County, California, regional water 
reclamation project, also known as the Groundwater 
Replenishment System.
    First of all, let me express my sincere gratitude to 
Congresswoman Sanchez for introducing this legislation and also 
thank you to Congressman Gary Miller for serving as the 
coauthor of this important piece of legislation.
    As you are well aware, California is grappling with many 
water issues today. Colorado River supplies, drought, CALFED, 
and the restoration of the San Francisco-San Joaquin Bay Delta 
are some of the issues that make the headlines.
    Orange County has developed a significant recycled water 
project that addresses the multiple local issues and provides 
regional water supply benefits. We have named it the 
Groundwater Replenishment System. This system will provide 
enough new water for 114,000 families each year. It could be 
expanded to double that capacity in the future. While others 
are talking about water, we are making it. We are making it at 
home and we are making it of extremely high quality, similar to 
bottled water. The citizens of Orange County are supportive of 
the project and they are supportive of meaningfully 
contributing to increasing and diversifying the region's water 
supply portfolio and sharing this benefit with the citizens of 
California.
    Orange County is very dependent on imported water. Imported 
water totals approximately half of our water supply. The 
Groundwater Replenishment System is a visionary water supply 
project that will create 72,000 new acre feet of water supplies 
for residences and businesses in Orange County, therefore 
reducing our need for scarce imported water. The Groundwater 
Replenishment System has significant support in Orange County 
from the medical, health, community, elected, business, 
agricultural, media, and environmental organizations. The 
project is a partnership between the Orange County Water 
District, the Orange County Sanitation District, the State of 
California, the Bureau of Reclamation, and the cities of Orange 
County.
    I am proud to say that the Groundwater Replenishment System 
is currently under construction and will be operational in the 
spring of 2007. The project's source of water is highly treated 
secondary sewage from the Orange County Sanitation District, 
which is currently being discharged into the Pacific Ocean, 
which we see as a wasted resource. This highly treated water 
will be further purified by the finest water purification 
technologies in existence today. It will undergo advanced water 
treatment that will include microfiltration, reverse osmosis, 
and ultraviolet light disinfection with hydrogen peroxide. This 
very pure water will meet or exceed all State and Federal 
drinking water standards.
    Some of the purified water will be pumped to recharge 
basins and naturally filtered again as it is introduced into 
the groundwater basin, where it will eventually blend into the 
groundwater and be extracted and made available for consumptive 
uses. Some purified water by our project will protect the 
groundwater from seawater intrusion through our injection into 
our Talbert Gap Seawater Intrusion Barrier along the coast.
    In the past, some recycled water projects have been 
criticized for not achieving their full yield potential. For 
example, a planned 10,000 acre feet per year project might 
initially only achieve a project yield of 8,000 acre feet a 
year. We know this will not be the case with our project. The 
full production of the treatment plant will be utilized by the 
Orange County Water District to enhance the management of the 
groundwater basin. We are the producers and we are the 
consumers. All of the purified water will be placed in the 
groundwater basin either through direct replenishment and 
percolation or direct injection at our seawater intrusion 
barrier. We will use 100 percent of the water to maximize use 
of our local groundwater basin and reduce our imported water 
use.
    The cost of the system is $450 million to produce 72,000 
acre feet a year. We anticipate the unit cost will be about 
$500 per acre foot, or roughly equivalent to imported water 
cost. We are very pleased that the project has several 
financial partners, including the Bureau of Reclamation under 
Title XVI, the State of California, as well as the Orange 
County Water District and the Sanitation District ratepayers.
    H.R. 1156 will increase our Title XVI authorization from 
$20 million to $80 million, thus providing equity, as many 
other Title XVI projects enjoy a 25 percent Federal cost share.
    I see my time is up, so I will wrap this up just by saying 
that our project currently is receiving a 4-percent cost share 
from Title XVI. The cap, of course, is 25 percent, and what we 
are asking for is an $80 million authorization, which would 
bring our share to 18 percent. Given the magnitude of our 
project and the regional benefits, we feel that this is a fair 
request.
    With that, we look forward to working with you on this 
legislation and address any questions you may have now or in 
the coming weeks. In the course of preparing for markup of H.R. 
1156, we would encourage the incorporation of our ideas to 
supplement this project with a regional wetlands treatment 
program. Thank you very much for your time.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Bilodeau follows:]

 Statement of Denis R. Bilodeau, President of the Board of Directors, 
               Orange County (California) Water District

Introduction
    Thank you, Mr. Chairman, Ken Calvert, and the other distinguished 
Members of the Subcommittee for Water and Power for the opportunity to 
testify today regarding California water issues. My name is Denis 
Bilodeau. I appear before you today as President of the Board of 
Directors of the Orange County Water District. I appreciate the 
opportunity to testify before you today in support of H.R. 1156, to 
amend the Reclamation Wastewater and Groundwater Study and Facilities 
Act, to increase the ceiling on the Federal share of the costs of phase 
I of the Orange County, California, Regional Water Reclamation Project 
also know as the Groundwater Replenishment System. First, let me 
express my sincere gratitude to Congresswoman Sanchez for introducing 
this legislation, and also thank you to Congressman Gary Miller for 
serving as the co-author of this important piece of legislation
Orange County Water District
    Orange County Water District was formed in 1933 by a special act of 
the California Legislature. Created to protect Orange County's rights 
to Santa Ana River water, Orange County Water District's primary 
responsibility is managing the vast groundwater basin under north and 
central Orange County. Since 1933, Orange County Water District has 
replenished and maintained the groundwater basin at safe levels while 
more than doubling the basin's annual yield. This important source 
provides local groundwater producers with a reliable supply of high-
quality water.
    Orange County's groundwater basin supplies water to more than 2 
million Orange County residents. OCWD primarily recharges the basin 
with water from the Santa Ana River and imported water purchased from 
the Metropolitan Water District of Southern California. Water enters 
the groundwater basin via settling or percolation ponds in the cities 
of Anaheim and Orange. Behind Prado Dam (constructed and owned by the 
U.S. Army Corps of Engineers for flood prevention), OCWD owns 2,400 
acres in Riverside County, which OCWD uses for water conservation, 
water quality improvement and environmental enhancement.
Groundwater Replenishment System
    As you are well aware, California is grappling with many water 
issues today. Colorado River supplies, drought, CALFED and restoration 
of the San Francisco-San Joaquin Bay Delta are some of the issues that 
make the headlines. No new water supply projects have been built in the 
State since the l960's, and any new projects must be more 
environmentally friendly than those of the past. Orange County has 
developed a significant recycled water project that addresses multiple 
local issues and provides regional water supply benefits--the 
Groundwater Replenishment System. The Groundwater Replenishment System 
will provide enough new water for 114,000 families each year. It can be 
expanded to double that capacity. While others are talking about water, 
we are making it. And we are making it of extremely high quality--
similar to bottled water. The citizens of Orange County are supportive 
of the project and they are supportive of meaningfully contributing to 
increasing and diversifying the region's water supply portfolio and 
sharing this benefit with the citizens of California.
    Orange County is very dependent on imported water--imported water 
totals approximately half of its water supply. A look into the future 
indicates continued population growth and political, environmental, and 
water quality issues threatening both local and imported water 
supplies, making water reliability a very significant issue.
    The Groundwater Replenishment System is a visionary water supply 
project that will create 72,000 acre-feet of new water supplies for 
residents and businesses of Orange County and thereby reducing our need 
for scarce imported water. The Groundwater Replenishment System has 
significant support in Orange County from medical, health, community, 
elected, business, agriculture, media, and environmental organizations. 
The project is a partnership between the Orange County Water District, 
the Orange County Sanitation District, the State of California, the 
Bureau of Reclamation, and the cities of Orange County.
    I am proud to say that the Groundwater Replenishment System is 
currently under construction and will be operational in Spring 2007. 
The project's source water is highly treated secondary sewage, from the 
Orange County Sanitation District, which is currently discharged into 
the ocean. This highly treated water will be further purified by the 
finest water purification technologies in existence today. It will 
undergo advanced water treatment that will include microfiltration, 
reverse osmosis, and ultraviolet disinfection with hydrogen peroxide. 
This very pure water will meet or exceed all State and Federal drinking 
water standards.
    Some of the purified water will be pumped to recharge basins and 
naturally filtered again as it is introduced to the groundwater basin, 
where it will eventually blend into the groundwater to be extracted and 
made available for consumptive uses. Some purified water produced by 
the project would protect the groundwater from seawater intrusion 
through injection into the Talbert Gap Seawater Intrusion Barrier.
Benefits
    The Groundwater Replenishment System solves five regional and local 
issues:
    1. It produces a new supply of water in an arid region that will 
help mitigate future recurring droughts and their impact on the 
groundwater basin.
    2. It will provide new water for a larger, expanded barrier 
against seawater intrusion into the groundwater basin along the coast.
    3. The new water produced will be a quality similar to or better 
than bottled water that will eventually improve water quality in the 
local groundwater basin by lowering the mineral content.
    4. Environmental Protection--It will delay, perhaps indefinitely, 
the need for an additional ocean wastewater outfall in northern Orange 
County and reduce our volume of daily wastewater discharge into the 
Pacific Ocean.
    5. Finally, it will help mitigate future predicted water shortages 
and augment Southern California local water supplies, reducing our need 
for imported water.
H.R. 1156
    In the fall of 2002, after receiving support and endorsement from 
virtually all of the local cities and retail water agencies in Orange 
County Water District's service area, the Santa Ana Watershed Project 
Authority and the State of California; Orange County Water District 
adopted a Joint Operation Agreement that enabled construction of the 
Groundwater Replenishment System to commence. The Groundwater 
Replenishment System feasibility study fully complied with the U.S. 
Bureau of Reclamation guidelines for Title XVI Projects and is a 
component of the Metropolitan Water District of Southern California's 
water supply reliability plan. The Groundwater Replenishment System is 
contained in and consistent with many regional water plans for Southern 
California.
    <bullet> SCCRWS
    <bullet> MWD's IRP
    <bullet> SAWPA's IWP
    <bullet> SARWQCB Santa Ana River Basin Plan
    <bullet> California Water Recycling Task Force Report
    <bullet> California Water Plan, Bulletin 160
    H.R. 1156 would provide an increased Federal authorization for the 
Groundwater Replenishment System. The increased authorization would 
provide financial equity and ensure that 72,000 acre-feet of additional 
water supplies will be created and used.
    In the past, some recycled water projects have been criticized for 
not achieving their full yield potential. For example, a planned 10,000 
acre-feet per year project might initially only achieve a project yield 
of 8,000 acre-feet per year. We know this will NOT be the case with the 
Groundwater Replenishment System. The full production for the treatment 
plant will be utilized by Orange County Water District to enhance the 
management of the groundwater basin. We are the producers and we are 
the customers! All of the purified water will be placed into the 
groundwater basin, either through direct replenishment and percolation 
or direct injection at the Talbert Gap Seawater Intrusion Barrier. We 
will use 100% of this water to maximize use of our local groundwater 
basin and reduce our imported water use.
    The cost of the Groundwater Replenishment System is $450 million to 
produce 72,000 acre-feet per year. We anticipate the unit cost of 
Groundwater Replenishment System water will be about $500 per/acre-
foot, or roughly equivalent to the current imported water rate. We are 
very pleased that the project has several financial partners.
    <bullet> United States Bureau of Reclamation existing Title XVI 
Authorization--$20 M
    <bullet> California State Grants--$70 M
    <bullet> Orange County Water District & Orange County Sanitation 
District Rate Payers--$300 M
    H.R. 1156 would increase the U.S. Bureau of Reclamation Title XVI 
authorization from $20 million to $80 million. This increase provides 
financial equity to the Groundwater Replenishment System Project and 
enables local dollars to be spent in developing other water supply 
projects. Many Title XVI projects enjoy a 25% Federal cost share. The 
current $20 million authorization means the Groundwater Replenishment 
System Project receives a 4% Federal cost share. An $80 million 
authorization increases the Federal cost share to 18%, still well below 
the 25% cap.
    Given the magnitude and regional benefits of the project--in terms 
of new water supply created, ability to provide a measurable relief to 
California's imported water woes, and the project's certainty that 100% 
of the proposed yield will be utilized--we believe the Federal cost 
share is appropriately set at 18% or $80 million. Thank you for your 
time.
    [NOTE: Attachments to Mr. Bilodeau's statement have been retained 
in the Committee's official files.]
                                 ______
                                 
    Mr. Calvert. Next, to testify on behalf of H.R. 2960, is 
Mr. Eduardo A. Campirano, Brownsville Public Utilities Board. 
Sir, you are recognized for 5 minutes.

 STATEMENT OF EDUARDO A. CAMPIRANO, ASSISTANT GENERAL MANAGER 
AND CHIEF OPERATING OFFICER, BROWNSVILLE PUBLIC UTILITIES BOARD

    Mr. Campirano. Good afternoon, Chairman Calvert, 
Congresswoman Napolitano, and Congressman Ortiz and members of 
the Committee. Thank you for the opportunity to present 
testimony on H.R. 2960.
    My name is Eduardo Campirano and I am the Assistant General 
Manager and Chief Operating Officer of the Brownsville Public 
Utilities Board. As it has been stated in many of the comments 
today, Brownsville is located in deep South Texas. Are you 
familiar with the area? Our dependency on water is totally 
surface water from the Rio Grande, and not only Brownsville, 
but all of South Texas. The situation for us is not getting any 
better for the reasons that were so eloquently described by 
Congressman Ortiz.
    H.R. 2960 is a bill that would provide opportunity for 
Brownsville to participate in the Title XVI funding for design, 
planning, construction of facilities for the treatment of 
recycled water as well as impaired waters in Brownsville. The 
use of water reclamation and desalination is in our long-term 
water strategy plan, and what I would like to do, if I may, is 
just kind of describe one specific project that is currently 
underway.
    As I stated, we currently depend 100 percent on surface 
water for use. Brownsville is part of a regional effort called 
the Southmost Regional Water Authority. The Authority 
represents Brownsville as the largest community, but also 
smaller communities in the area. We currently have a project 
that takes the treatment of brackish groundwater and utilizes 
it for producing top-quality water, bottle-quality water, it 
was stated earlier. The project actually will be producing 
water under Phase I as early as next month, and full production 
by the end of this year.
    That particular project is strictly a local effort. It is a 
$30 million project. All of it is coming from the local 
entities. It will take ten million gallons of brackish 
groundwater and produce 7.5 million gallons of treated water. 
For Brownsville, that represents approximately 30 percent of 
the potable water use in our community. For the surrounding 
communities, it represents an equal amount, getting away from a 
water supply that is obviously not influenced heavily by the 
drought conditions and certainly by the increased pressures of 
a growing South Texas on the water from the Rio Grande.
    This particular project has the potential to be expanded to 
double its capacity for half of the amount of money that the 
local entities have put in to initiate the project. It can 
easily be doubled under Phase II to produce 15 million gallons 
of water per day.
    We believe that H.R. 2960 provides an opportunity for 
Federal participation. In July, I had the opportunity to come 
and testify before this Committee on Chairman Calvert's bill, 
H.R. 2828, and that particular bill provides again creating 
those opportunities for local participation along with Federal 
participation in expanding projects that use non-traditional 
sources of water.
    For Brownsville and South Texas, these projects represent 
strategies that are not currently being implemented and would 
provide not only an opportunity for Brownsville, but all of 
South Texas to begin to wean itself from the dependency of 
surface water from the fragile Rio Grande.
    I had submitted comments before and I ask that those 
comments be submitted for the record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Campirano. I want to end my testimony by simply saying 
that I commend Congressman Calvert and members of the Committee 
for what you are doing in efforts to provide these kinds of 
strategies and alternatives in local communities. The water 
situation is not getting any better, and until we begin to 
explore non-traditional uses to supplement the already fragile 
resources, we are not really going to address the problem.
    I would be happy to answer any questions that you may have 
and again want to commend you for your efforts. Thank you.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Campirano follows:]

Statement of Eduardo A. Campirano, Assistant General Manager and Chief 
     Operating Officer, Brownsville, Texas, Public Utilities Board

    Good afternoon Chairman Calvert and Members of the Committee. Thank 
you for the opportunity to testify before you today regarding H.R. 
2960. My name is Eduardo A. Campirano and I am the Assistant General 
Manager and Chief Operating Officer of the Brownsville Public Utilities 
Board in Brownsville, Texas.
    The Brownsville Public Utilities Board is a municipally owned 
utility company providing electric, water and wastewater services to 
the citizens of Brownsville, Texas and the surrounding area. 
Brownsville is located on the southern tip of Texas along the US/Mexico 
border, and is currently of the fastest growing metropolitan 
statistical areas (MSA) in the United States. The Brownsville MSA 
experienced a 30% population growth from 1990-2000 with a fairly young 
population, where the median age is 29. The area has experienced 
significant growth on both sided of the US/Mexico border and 
Brownsville in particular is experiencing unprecedented growth.
    This growth poses significant challenges to the Brownsville Public 
Utilities Board. With the increased issuance of building permits and 
the increased demand placed on the utility systems, there is a 
tremendous demand for infrastructure improvements and additional water 
supply. Brownsville and other communities in the Lower Rio Grande 
Valley have been working together with the State of Texas and the 
Mexican State of Tamaulipas to solve our need to ensure our long-term 
water supply. This is the top environmental and quality of life issue 
for the entire region.
    The Brownsville Public Utilities Board has developed a water supply 
plan that projects the demand and supply of water for the City of 
Brownsville for the period of 2000--2050. At the current rate, water 
demand will deplete supply by the year 2010. However, we have not been 
idle in planning for our future water needs. The water supply plan 
incorporates various elements including water conservation, increased 
surface water capacity, groundwater treatment and development, water 
reclamation and desalination. However, employing these strategies is 
dependent on implementation of legislative and funding recommendations.
    Several years ago, the Brownsville Public Utilities Board began 
planning the construction of the Brownsville Weir and Reservoir Project 
between the U.S. and Mexico on the Rio Grande River. The concrete/gated 
weir structure will create riverine impoundment of water within the 
banks of the Rio Grande River located approximately four (4) miles 
southeast of the City of Brownsville. The project can store up to 6,000 
acre feet of water consisting of flood spills and releases from Falcon 
Reservoir, excess and unused releases from Falcon Reservoir, flood 
flows below Falcon Reservoir and Mexican water flow with Mexico's 
permission. The Brownsville Public Utilities Board is in the final 
stages of securing federal approval under the Section 404 permit of the 
U.S. Army Corps of Engineers. The project cost is estimated to be $40 
million and significant funds have been spent to date to get the 
project through state and federal permit processes. As you very well 
know, gaining the support of interest groups and guiding the project 
through permitting can be a very challenging task. It has been very 
frustrating to move the project through the maze of federal and state 
reviews, but we are near our goal.
    On July 24th of this year, I had the opportunity to present 
comments before this Committee in support of Chairman Calvert's bill, 
H.R. 2828. On that day, I testified about the importance of a federal 
and local partnership to plan, design and construct water reclamation 
and desalination facilities. The Brownsville Public Utilities Board 
believes that H.R. 2960 provides great opportunity to secure federal 
participation in the development of a viable project(s) that will help 
diversify and expand a water supply that is currently dependent on the 
Rio Grande River.
    H.R. 2960 is a bill that would add the Brownsville Public Utilities 
Board (BPUB) as an entity eligible for a federal share of Title XVI 
funding for design, planning, and construction of facilities to 
reclaim, reuse and treat impaired waters in the Brownsville, Texas 
area. BPUB's water supply plan includes water reclamation and 
desalination projects.
    BPUB is currently exploring the potential for using reclaimed 
wastewater for industrial prospects at the Port of Brownsville. The 
Port of Brownsville is a deep water sea port for the movement of raw 
and bulk materials via barge and ocean-going vessels. The Port also has 
domestic and international rail crossings. The potential for using 
reclaimed water for industrial use at the Port could result in 
reclaiming up to six (6) million gallons per day of effluent discharge 
form the North Sewage Treatment Plant. The proposed project would 
result in the construction of a ten inch (10'') waterline to transport 
the reclaimed water to the Port of Brownsville. The estimated cost of 
constructing, designing, securing right-of-way and constructing the 
line is $3 million.
    In addition to the reclamation project at the Port of Brownsville, 
BPUB in conjunction with the University of Texas/Texas Southmost 
College has developed a project that would utilize effluent discharge 
from the South Sewage Treatment Plant for use by the University for its 
irrigation purposes. The University is situated on 380 acres that 
includes the university campus, athletic facilities and a golf course. 
The project will use up to four (4) million gallons per day of effluent 
discharge for use by the University. The cost of constructing a 
pipeline to transport the treated effluent to the University is 
approximately $2 million.
    In addition to wastewater reclamation, the BPUB is very interested 
in federal desalination efforts. The Brownsville area has substantial 
impaired groundwater and our location provides strategic access to 
seawater, both of which are essential to our future water supply 
strategies.
    We are currently involved with the Southmost Regional Water 
Authority in the construction of a regional brackish groundwater 
desalination facility. This project provides for the deployment of a 
water supply that is a source of water independent of the Rio Grande 
River. Brackish groundwater is not subject to water rights purchases. 
This project does not have the prohibitive environmental, capital and 
operating costs of a seawater desalination facility while at the same 
time developing a water supply that is drought tolerant and provides 
for an improved potable water supply. Phase I of this project will 
produce 7.5 million gallons per day of drinking water per day. The cost 
of developing this project is $30 million.
    The expansion of the brackish groundwater desalination facility or 
Phase II provides for securing federal participation in this project. 
Phase I is being funded with local resources and Phase II would double 
the size of the facility. Phase II would expand the potential for 
expanding the regional impact of this facility to include other 
surrounding communities who might otherwise could not undertake such a 
project on their own. The desalination facility could be expanded to 
produce 15 million gallons of water per day at an estimated cost of $15 
million.
    These projects represent a tremendous opportunity for Brownsville 
to enhance and expand its water supply. There is a great dependency on 
water from the Rio Grande River and these projects represent the first 
steps in deploying strategies that will lessen the dependency on this 
fragile water supply.
    This concludes m testimony. Thank you again for the opportunity to 
appear at this hearing. Chairman Calvert and members of this Committee, 
I commend you for your efforts to assist our communities in finding 
ways to deal with the increased demand for water supply is a 
diminishing resource. I would be happy to answer any questions that you 
may have.
                                 ______
                                 
    Mr. Calvert. Next, Mr. Robert DeLoach, testifying on behalf 
of H.R. 2991. Sir, you are recognized for 5 minutes.

  STATEMENT OF ROBERT A. DeLOACH, CHIEF EXECUTIVE OFFICER AND 
        GENERAL MANAGER, CUCAMONGA COUNTY WATER DISTRICT

    Mr. DeLoach. Thank you very much, Chairman Calvert and 
Ranking Member Napolitano and members of the Subcommittee. I do 
appreciate the opportunity to be here today and request that my 
previously submitted written testimony be submitted as a part 
of the record here today.
    Mr. Calvert. Without objection, so ordered.
    Mr. DeLoach. Our agency is not unique amongst many agencies 
in Southern California. We are a retail water and sewer agency 
located within the Inland Empire Utilities Agency service area 
in San Bernardino County in the Greater Santa Ana River 
watershed.
    Our agency currently provides water and wastewater services 
to more than 160,000 people in a 47-square-mile area and is 
expected to reach over 230,000 population by the year 2020. 
According to a Census Bureau report released earlier this year, 
the city of Rancho Cucamonga alone was identified as the third 
largest growing city in the Nation with a population over 
100,000.
    Our agency supplies retail and water services to a variety 
of communities, primarily the city of Rancho Cucamonga and 
portions of the cities of Fontana, Ontario, Upland, as well as 
the unincorporated area within San Bernardino County. Our 
agency receives approximately 50 percent, if not more at 
certain times of the year, of its water supply through the 
Metropolitan Water District of Southern California as delivered 
through IUA. Approximately 40 percent of our local developed 
water supply is actual groundwater supply in adjudicated 
groundwater basins. The remaining 10 percent of our supply is 
collected as surface water from the neighboring adjoining San 
Gabriel Mountains. By the year 2020, our agency will need an 
additional 20,000 acre feet of new water supply that we 
currently do not have to meet our existing and growing demand.
    In addition to our potable water supply, our agency is a 
member of the Chino Basin Regional Wastewater Program which is 
administered by Inland Empire Utilities Agency. Regional 
projects currently underway, as Mr. Atwater previously 
testified to, would generate 75,000 acre feet of new water 
supply by the year 2010. Of that amount, over 20,000 acre feet 
will be directly attributable to Cucamonga's service area at 
full build-out.
    The rapid growth within our region has triggered several 
significant resource management issues. Local groundwater 
basins have a legacy of agricultural contamination, and as you 
know well, adjudicated groundwater basins have several 
limitations placed on them through the courts. Additionally, 
the goals and objectives of CALFED and the Colorado 4.4 Plan 
place long-term limitations on our ability to take imported 
water.
    We have adopted a goal at CCWD or a philosophy to make sure 
that every drop counts. Recycled water is a critical and 
extremely valuable component of our future. Our planning 
process established four major resource management goals. 
Maximize the beneficial use of recycling water. Decrease our 
reliance on the State water project system. Provide maximum 
flexibility for overall supply opportunities. And develop 
energy-efficient delivery systems.
    The use of recycled water within our area is not without 
its challenges. Much of our jurisdiction is built on an 
alluvial fan which requires innovative and new technology not 
previously used to the extent that we are proposing. Much of 
the water would need to be delivered and pumped uphill to 
parks, to schools, to neighboring landscaped areas. The energy 
costs alone would become a major obstacle to the use of 
recycled water.
    Our innovative strategy calls for the siting of small, 
localized satellite treatment plants adjacent to where the 
demand actually exists. This strategy will allow us to use the 
existing regional system for the peak demands of the gravity 
flow system.
    Each of these facilities is capable of producing up to 
1,100 acre feet of new water. The avoided cost of moving off 
the Metropolitan Water System imported deliveries could equate 
to as much as $375,000 per site on an annual basis.
    Working in cooperation with the many agencies that we 
supply water to, we are proposing to site these facilities at 
the various parks throughout the recreational system, through 
schools and including a junior college. Each of these sites, if 
not all, are located between 600 and 750 feet in elevation 
above the nearest regional wastewater treatment facility. The 
energy cost to move this water to that location would be cost 
prohibitive.
    Of all the benefits that we derive out of these projects, I 
believe the key benefit would be that these satellite plants 
provide complete water supply reliability and dry year 
availability as a part of our drought-proofing program. Many of 
the goals that were listed for both regional, State and Federal 
programs have previously been spoken to.
    In the essence of time, I would just note that the Southern 
California Water Recycling Task Force identified the need for 
1.5 million acre feet of new recycled water by 2030. Making 
maximum beneficial use of this supply would allow us to note 
only relieve the pressure on the State project system, but 
assist users in the valuable fertile San Joaquin Valley.
    We view the existing 25 percent Federal cost share formula 
as an investment at the local level that will allow our agency 
to leverage local funds to develop these worthwhile and very 
beneficial projects.
    In conclusion, Mr. Chairman, since I see my time is up, I 
wish to thank you, Ranking Member Napolitano, and all the 
Subcommittee members for your valuable leadership on this 
issue. Thank you for your time.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. DeLoach follows:]

         Statement of Robert A. DeLoach, General Manager/CEO, 
     Cucamonga County Water District, Rancho Cucamonga, California

Introduction
    Chairman Calvert, Ranking Member Napolitano and Members of the 
Subcommittee, I am Robert DeLoach, the General Manager and Chief 
Executive Officer of the Cucamonga County Water District located in 
Rancho Cucamonga, California (San Bernardino County). Thank you for the 
opportunity to appear before you today.
    The Cucamonga County Water District supports H.R. 2991, and urges 
its markup without amendment.
    Cucamonga County Water District is a retail water and sewer agency 
located within the service area of the Inland Empire Utilities Agency 
in western San Bernardino County and in the greater Santa Ana River 
Watershed. Our agency currently provides water and wastewater services 
to more than 160,000 people in a 47 square mile area. According to a 
United States Census Bureau report released earlier this year the City 
of Rancho Cucamonga was identified as the third fastest growing city in 
the nation with a population of over 100,000. Over the past five years 
our agency has averaged over one thousand new connected water and sewer 
customers annually. By the year 2020 our population is expected to 
reach approximately 230,000 people.
    Our agency supplies retail water and sewer services to the 
community of Rancho Cucamonga and portions of the communities of 
Fontana, Ontario and Upland as well as unincorporated areas within San 
Bernardino County. Our agency receives approximately 50% of its water 
supply from the Inland Empire Utilities Agency, a member agency of the 
Metropolitan Water District of Southern California. Approximately 40% 
of our locally developed water supply comes from groundwater produced 
from the Chino and Cucamonga Basins, both of which are adjudicated 
groundwater basins. The remaining 10% of our supply is surface water 
collected from our local San Gabriel Mountains. Our present average 
daily water demand is 45 million gallons per day (MGD), with wastewater 
flows averaging 10 MGD. By the year 2020 our agency will need an 
additional 20,000 acre feet of new water supply to meet our growing 
demand.
Urban Water Reuse Management Strategy--``Every Drop Counts!''
    Our agency is a member of the Chino Basin Regional Wastewater 
Treatment Program managed and administered by the Inland Empire 
Utilities Agency. Recycling projects currently underway or proposed 
within the Inland Empire region will generate 75,000 acre feet of new 
supply by 2010. Of that amount, over 20,000 acre feet will be directly 
attributable to Cucamonga's service area at full build-out.
    The rapid growth within our region has triggered several 
significant resource management issues. The Chino and Cucamonga Basins 
have a legacy of agricultural contamination such as nitrates and other 
agricultural chemical residuals. As such, new groundwater production is 
limited without extensive treatment processes or due to limitations 
established in the court approved adjudications. Additionally, the 
goals and objectives of CALFED as well as the Colorado River ``4.4 
plan'' place long-term limitations on imported water deliveries.
    Our philosophy of making sure that ``every drop counts' ' 
recognizes the value of efficient water use. Recycled water is a 
critical and extremely valuable component of our future and as a 
preface to our planning process we have established four water resource 
management objectives:
    <bullet> Maximize the beneficial use of recycled water;
    <bullet> Decrease our reliance and dependence on imported water 
from the State Water Project;
    <bullet> Provide maximum flexibility of all supply opportunities; 
and,
    <bullet> Develop energy efficient delivery systems.
Special Challenges to Deliver Recycled Water
    The use of recycled water within our area is not without its own 
challenges. Much of our jurisdiction is built on the alluvial fan of 
the San Gabriel Mountains and requires extensive pumping and energy 
cost to move water up the foothills to where much of our existing and 
future need exists. Given the condition of the California's electricity 
situation, this becomes a major obstacle in utilizing recycled water. 
Additionally, the water conveyance facilities required to transport the 
treated water to the area of need are non-existent requiring extensive 
infrastructure investment and as a consequence increased costs to our 
ratepayers.
Innovative Delivery of Recycled Water
    Our innovative strategy calls for the siting of small, localized 
satellite treatment plants adjacent to where the demand actually 
exists. This strategy will allow us to use the existing regional system 
to meet the peak demands of the gravity flow areas.
    A unique feature of this technology is that the individual 
satellite plants can be sized according to the actual demand of the 
individual locations. Our analysis indicates that approximately 1,120 
acre feet of new treated water supply will be available at each 
location. In terms of imported water cost avoidance this equates to a 
savings of $375,000 per site on an annual basis. A variety of new 
customers have been identified and support for this initiative is very 
high.
    Working in cooperation with the City of Rancho Cucamonga, we 
propose to site a number of satellite treatment plants throughout their 
recreational park system. One such location, which is typical for many 
of their larger parks, will be at the Red Hill Community Park which is 
approximately 600 feet above the elevation of the nearest regional 
wastewater treatment facility. This park site and an adjacent high 
school are ideal candidates for recycled water use. Prior to 
development of this innovative technology, the energy costs alone would 
have made this project cost prohibitive given the state of their 
respective budgets.
    The key benefits of this innovative technology are obvious:
    <bullet> Locating the satellite plants where the need exists 
allows us to eliminate energy costs associated with pumping.
    <bullet> The need for imported water from the State Project system 
is now avoided.
    <bullet> Construction of new or expansion of existing regional 
wastewater treatment facilities is deferred saving valuable financial 
resources.
    <bullet> During times of drought the satellite plants will provide 
water supply reliability and dry-year availability which is a critical 
element of ``drought-proofing'' the region.
Reuse Goals Consistent with Regional, State and Federal Programs
    The implementation of our unique wastewater management strategy 
expands our existing water supplies and is consistent with all 
regional, State and Federal programs. From the Federal perspective it 
meets the goals of the CALFED program through development of a new 
resource opportunity. The United States Bureau of Reclamation recently 
completed a Comprehensive Water Recycling and Reuse Study for Southern 
California and concluded that water recycling projects in Southern 
California could produce almost 450,000 acre feet of new recycled water 
by 2010. Our project coupled with those proposed by the Inland Empire 
Utilities Agency will produce approximately 75,000 acre feet of that 
new supply.
    The State of California's Water Recycling Task Force identified the 
need for 1.5 million acre feet of new recycled water by the year 2030. 
Making maximum beneficial use of recycled water creates additional 
benefits by relieving pressure on the State Water Project system which 
in turn assists users in the fertile San Joaquin Valley.
    Regionally, our project conforms to the Metropolitan Water District 
of Southern California's Integrated Resource Plan, the Santa Ana 
Watershed Project Authority's watershed program, the Chino Basin 
Watermaster and the Inland Empire Utilities Agency's water supply 
goals.
    As previously indicated, our watershed is one of the fastest 
urbanizing watersheds in the nation. We do not expect to receive more 
water from the State Water Project, and may well get less that 
originally planned. Nevertheless, we can expand our existing water 
supplies through development of local supplies to ``drought-proof'' our 
water district.
H.R. 2991--The Dreier Bill
    The Dreier Bill proposes to amend the Reclamation Wastewater and 
Groundwater Study and Facilities Act and to authorize the Secretary of 
the Interior to participate in the Inland Empire regional recycling 
project and in the Cucamonga County Water District recycling project. 
We support this initiative because it would commit the Federal 
government to provide assistance to agencies who are trying to bring 
new water supplies online using innovative technologies.
    The existing 25% Federal cost share formula is an investment at the 
local level that will allow the Cucamonga County Water District to 
leverage local funds to develop these worthwhile and very beneficial 
projects.
    In conclusion, Mr. Chairman, I wish to thank you, Ranking Member 
Napolitano and all the Subcommittee members for your leadership on this 
issue.
                                 ______
                                 
    [Letters submitted for the record by Mr. DeLoach follow:] 

    [GRAPHIC] [TIFF OMITTED] T9270.006
    
    [GRAPHIC] [TIFF OMITTED] T9270.007
    
    [GRAPHIC] [TIFF OMITTED] T9270.008
    
    [GRAPHIC] [TIFF OMITTED] T9270.009
    
    [GRAPHIC] [TIFF OMITTED] T9270.010
    

    Mr. Calvert. We were up in Albuquerque, Mr. Pearce's 
district, over the weekend, and a beautiful district that it 
is, but as I said at that hearing, it is kind of deja vu all 
over again. I hear a lot about the stress of the lack of water 
throughout the West, and whether it is the Colorado River or 
the Klamath Valley or the Snake River, the Upper Rio Grande, 
the Lower Rio Grande and Brownsville, Texas, certainly the 
issue of the quantification settlement agreement and our 
ongoing negotiations to get that resolved, we have a lot of 
water problems ahead of us.
    I am looking forward to working with the Bureau, Mr. Rinne, 
to resolve some of these issues, because if, in fact, and I 
understand--I met with the Secretary this morning. I think we 
are very close to an agreement on the quantification settlement 
agreement. I think we have all the parties both in the Upper 
Basin and Lower Basin together on this.
    But as you know, even if we enter into that agreement and 
we are successful in putting that to bed, California, and 
rightfully so for our friends here in the Upper and Lower Basin 
States, we have to do our part and wean ourselves from the 
Colorado River for our friends in the other States can get 
their fair share and fair allocation of that water.
    However, as you also know, California is about half the 
population of the Reclamation States and for us, in order to 
meet those requirements, we must develop additional water 
resources. So as we look forward to dealing with you, I would 
hope that to continually promote to you and to your colleagues 
that this is absolutely not something that we should be on the 
sidelines on. It is something we need to do.
    I want to ask to all of the witnesses here today, how do 
the cost benefits of desalination, brackish water treatment, 
wastewater recycling, all these things that have been brought 
up today, and other water supply enhancement options, what are 
the costs of these and what are our options if we don't do 
them? Mr. Atwater, why don't I start with you.
    Mr. Atwater. Thank you, Mr. Chairman. Well, at your field 
hearings and as we have talked about at the California Water 
Commission, there are no longer other options in California. 
Certainly in CALFED, we have talked about new surface storage 
and we hope that comes to pass. But from a groundwater storage 
and developing new supplies, realistically, water recycling, 
desalination, both groundwater and ultimately seawater at the 
Metropolitan Water District and working with some of the member 
agencies like L.A., West Basin, Long Beach, Orange County and 
San Diego, we do think there is a potential over the next ten, 
15 years to develop about 100,000, maybe 150,000 acre feet of 
seawater desalting.
    But the projects that we talk about on the Santa Ana River 
are really incredibly important when you look at the growth in 
Riverside, San Bernardino and Orange County. And clearly, we 
think they are very cost effective. I would be happy to provide 
to the Committee a cost comparison between some of the 
reservoir projects and the other alternative supplies in 
California so that you can--
    Mr. Calvert. That would be helpful, and the record, as I 
mentioned, will be held open for 10 days. We would be happy to 
get that.
    Any other comments?
    Mr. Bilodeau. Very quickly. The cost of our water to 
produce is about $500 an acre foot. Desalination--ocean 
desalination is about double that. We are able to do it cost 
effectively because it takes so much less energy to clean 
secondarily treated sewage than desalt ocean water. And also, 
our project is the largest of its kind in North America. Not a 
week goes by that we don't have visitors from Asia or the 
Middle East or Europe that come to see what we are doing so 
they can emulate that in other parts of the world.
    Mr. Calvert. Great. Mr. Rinne?
    Mr. Rinne. The only thing I would add to that, as I think 
about options, there may be more than this, but probably three 
or four, certainly the water recycling, desalination, water 
conservation, and then I would throw in--my term would be water 
transfers. All of it probably play into helping to solve the 
puzzle in the long term. In and of themselves, probably none of 
them, as we all would probably agree, would do it. But they all 
probably help.
    And then finally, in that regard, and I appreciate your 
comments to us, Mr. Chairman, about wanting to work with us. We 
do want to work with you on solving these problems and I think 
the area--one of the areas we are trying to do is our part as 
we can in some of the--with an emphasis on research, say, in 
desalination, where it may help, this other gentleman before 
mentioned, to even bring the cost down further if we can and 
that would help, again, to make it more feasible to do some of 
these things.
    Mr. Calvert. Robert?
    Mr. DeLoach. Mr. Chairman, I just offer two points. One I 
already spoke to earlier, and that was the cost avoidance for 
our customers, the actual ratepayer who pays the bill, and that 
is the avoided cost of not purchasing State project water, 
anywhere from $300,000 to $375,000 a year per one of these 
sites that we discussed.
    The second part is as we purchase this water through the 
Inland Empire Utilities Agency and build the infrastructure to 
deliver it to our customers, that rate is significantly less 
than the potable rate that we normally supply to our customers, 
about a 20 percent cost decrease. That helps the ratepayer to a 
significant degree to meet just the standard of living that we 
have grown accustomed to.
    Mr. Calvert. I thank the gentleman.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chair. I sit here and 
wonder how we are going to get this done, but Mr. Rinne, one of 
the things you mentioned was that you would oppose all bills 
because of the reasons you stated--the cap was over, you didn't 
think--they didn't have any EIR review analysis. Yet, most of 
these programs have already--they are online. They have not 
been funded by the Bureau of Reclamation before, maybe in 
assistance with the planning.
    But how do we continue to move forward to try to meet the 
plan, and I am not talking about Texas, but the rest of the 
ones that are here from California, to be able to continue 
producing potable water for the communities, for the industrial 
community, for the needs that the growth demands? It isn't a 
matter of we can stop the growth. We can't. So how do we 
address that without saying, if we are going to build more new 
desalination plants, alone the cost, and then what do you do 
with the brine? So there are other issues that go into--if you 
just say, well, desalination might be the major answer. That is 
why we are focusing on that. Water transfers.
    I had asked when we were in Moab, Utah, when we were 
working on the Colorado River, the Utes were willing to sit at 
the table. But there is a Federal law that prohibits water 
transfers. They have plenty of water, they say. We would be 
willing to help transfer some of that. Federal law prohibits 
that. How do we do that? How can you come and say to us, here 
are things that we can do? Here are some of the solutions that 
some may need, legislative processing. Others may be working 
together, coalition building. I certainly hope my Texas 
Representative here would pick the brain of Richard Atwater, 
Mr. Bilodeau and Mr. DeLoach so that we can learn from each 
other, so we can help each other, so we can understand the 
priorities.
    When you have a Texas area that is not only drought--we 
have been working on that. We had that hearing in Texas with 
the Rio Grande. But the fact that they are right at the ocean, 
so they have saltwater intrusion. They have all kinds of 
problems. How do we help them deal with the increase in 
population, with the increase in being able to deal with the 
industrial growth, and address those issues.
    We are trying to help them so we have that assistance in 
our budgetary needs, and we can't do it without the help of the 
agencies. I mean, what do we do, sir?
    Mr. Rinne. Maybe a couple of thoughts. First, I will 
restate again, while we cannot testify in support of the bills 
that are here today, we are not opposed to water recycling 
projects, and I think that is borne out by the program that we 
have ongoing over the last--
    Mrs. Napolitano. Right, except that the funding has been 
decimated. So, in essence, you may not totally not support 
them, but you don't fund them.
    Mr. Rinne. The second thing is that maybe --when you think 
of the proposed initiative for 2004, the Water 2025 as the 
Chairman had mentioned in opening remarks about the trips 
around the West, which is a pretty good active statement. I 
think, of a lot of going ons. The hope is that, and two of the 
key objectives as I understood them was, number one, it was an 
attempt to get people, all of us, not just the Federal people 
but locals and from all walks of water together and actually 
talk and do the very thing you are--to look at the very 
questions you are asking. How do you best tackle these things?
    And that is why a moment ago, when I was talking, not that 
those four areas are the only areas that solve water problems. 
I don't kid myself that I have all the answers there. But I 
think that is the way that we can do it, is get the people 
together in the same room as some of them have started. That is 
what some of the 2025 meetings were about. Get the dialog 
going. The second thing was to then try to see if we could come 
up with solutions collectively that might help avoid these 
conflicts, you know, identify where the problems are. Again, I 
think they were characterized pretty accurately. You just look 
at about any river system and urban areas on it and it speaks 
for itself.
    I don't know if there is a silver bullet. I just think that 
it is going to take a lot of hard work. I do think that--I also 
don't think at this point that we are--you know, we are working 
hard on the projects that are authorized. We want to do the 
Title XVI ones, we want to do our part. But it is not an easy 
solution to solve that. We certainly look at it. We hear your 
concerns and we want to address them and work with them.
    Mrs. Napolitano. Thank you, sir. I know my time is up, but 
in California, we are expected to meet 4.4 by 2016. How are we 
going to do that if we don't have this additional tool of being 
able to increase the funding for recycled water projects? It is 
only seed money, but it is helpful because it then allows that 
project to move forward. It is just frustrating, sir. Thank 
you.
    Mr. Calvert. Mr. Pearce?
    Mr. Pearce. Thank you, Mr. Chairman, and thank you for 
coming to the Second District of New Mexico over the weekend. 
That was an excellent hearing and I am still getting favorable 
comments on that.
    My questions, we in the Southern District of New Mexico 
make millions of barrels every day of produced water that is 
manufactured--it is brought to the surface when you bring oil 
to the surface. We separate it out and typically we dispose of 
that water. Usually, it is coming from very deep production 
zones and it is a waste of water that could be cleaned up, the 
salt taken out, the hydrocarbons taken out.
    My question is, Mr. Bilodeau, as you talk about your costs, 
$500 per acre foot. Is that cost including the cost of the 
plan, or are those just operational costs that you are 
referring to?
    Mr. Bilodeau. It is the cost of the production as well as 
the amortization of our debt.
    Mr. Pearce. OK. And when you talk about cleaning up your 
water to where it is well beyond the cleanliness required or 
the content required for drinking water, what part per million 
are you expecting that you would have as you discharge the 
water for, just approximately?
    Mr. Bilodeau. About 300 parts per million on that, total 
dissolved solvents.
    Mr. Pearce. Three-hundred?
    Mr. Bilodeau. Yes. I believe the drinking water standard is 
500.
    Mr. Pearce. In my district, we are going to the sewage 
treatment plants and we are putting water into the Rio Grande 
River and the parts per million are down around two, two parts 
per million, and they were using a figure of 30 for drinking 
water, or for discharge into the rivers, and these are just 
your standard run-of-the-mill sewage treatment plants. I am 
wondering what is different about your process than a standard 
sewage treatment plant that would--I mean, we looked at the 
filters of just tap water and then the filter of this water 
coming through. It is highly purified just in the normal 
sequence. Can you give me some clarity on that?
    Mr. Bilodeau. I think perhaps we will have to get back to 
you on that in terms of the--
    Mr. Pearce. I would appreciate that.
    Mr. Bilodeau. We might be talking about a different 
measurement or a different--
    Mr. Calvert. I think, Mr. Pearce, I think probably on the 
total dissolved solids, I am sure that it is somewhat higher 
than two parts per million that is coming out to the Rio Grande 
after treatment, because the Colorado River is approximately 
700 parts per million on TDS, and if you can clean any water at 
300, it is very, very, very, very good water.
    Mr. Pearce. Well, I--
    Mr. Atwater. Excuse me. And when you normally talk about 30 
parts, that normally equates under the Clean Water Act, for the 
wastewater sewage treatment plant, you are probably talking 
about 30 milligrams per liter biological demand, BOD, as we 
call it, or suspended solids, which is the normal measure of 
how much we cleaned up the wastewater. It is not salinity, but 
it is a different measure. So we may be talking about apples 
and oranges--
    Mr. Pearce. I would suspect so, but if you could get me 
information, I would like to compare it to what I am saying--
    Mr. Bilodeau. Absolutely.
    Mr. Pearce. --because we have got different communities 
there that are saying they are in single digits. Again, this is 
wastewater that is going back into the river.
    Mr. Campirano, as you talk about the input of the water 
that you want to desalinate, what parts per million are you 
looking at on some of the waters that you have in Brownsville 
there?
    Mr. Campirano. The brackish groundwater that we currently 
are taking in is about 3,500 parts per million.
    Mr. Pearce. OK.
    Mr. Campirano. So it is considerably less, obviously, than 
the access that we have to our seawater.
    Mr. Pearce. Seawater is about 25,000 parts.
    Mr. Campirano. Actually, we have a very high salinity. I 
think we have one of the super-saline bodies of water in our 
area that can go as high as 45,000 parts per million, so in our 
particular case, it just--it is cost prohibitive to begin to 
look at the kind of operation where we can look to the Gulf for 
our source of water and we need to really explore all of the 
groundwater options before we begin to look at that.
    Mr. Pearce. Thank you, Mr. Chairman. I would just ask one 
last question. It will be kind of an open question to each of 
you who have projects, and that would be about the ownership of 
the water. Who would own the water that comes out as an output? 
And Mr. Rinne, at some point, I would like your comments on 
that.
    I have had friction with the Bureau of Reclamation before 
over them claiming that because they ever participated in any 
financial way, that they own the water, and we have got a 
circumstance in our district. So that I would caution each one 
of you water systems that if you take water from the Bureau of 
Reclamation at some point in the future, they may say, it is 
our water, it is not your water. The Elephant Butte is the 
only, the only irrigation system that has ever been paid off in 
the Bureau of Reclamation system, or was at the time that the 
Bureau of Reclamation decided to say that that water was 
theirs.
    So my simple caution, and maybe it is a question, that you 
really look at this with your eyes open if you think this is 
going to be your water without context 20 and 4 years into the 
future. It is a very problematic question. If you would like to 
respond, I would like to hear from you, and then, Mr. Rinne, if 
you would like to. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. The gentleman from Texas, Mr. 
Campirano, one question. Just following up with what Mr. Pearce 
said, just before we go to our next question, your 3,500 parts 
per million TDS, and what is your cost to clean up the water, 
approximately, per acre foot?
    Mr. Campirano. In this--I don't have that unit in cost per 
acre foot. I can break it down to you as compared to what it 
costs us in terms of 1,000 gallons, which is what we use to 
measure how we are going to sell the water. In our particular 
case, not only the--all of the infrastructure that is going 
into place for the brackish groundwater project as well as the 
treatment and the big cost of powering the facility. It comes 
out to about 92 cents per thousand. That is very--in our 
community, that is affordable.
    Mr. Calvert. That is approximately the same price as the 
Orange County water price, I suspect. OK. Thank you.
    Mr. Solomon Ortiz?
    Mr. Ortiz. Thank you, Mr. Chairman. I would like to ask Mr. 
Campirano, maybe you can expand on some of the features that we 
have in the Brownsville area that you plan to use as part of 
your water supply system. I believe that we call them resacas 
and maybe you can talk to the Committee and explain how do you 
plan to use these features that we have.
    Mr. Campirano. Brownsville is unique that it has these 
features, bodies of water that essentially, I guess, could be 
described as ox bow legs that were part of the Rio Grande 
system many years ago that have been cutoff over time. In 
Brownsville, we currently have a project with the Corps of 
Engineers that is called the Resaca Restoration Project. 
Unfortunately, the resacas over time have been used as flood 
control for the city of Brownsville and consequently have been 
heavily damaged over the years as basically being the catch 
basins for all of the surface drainage.
    In Brownsville, those resacas actually serve as surface 
water storage for our surface water treatment. What we hope to 
do with the resacas is to essentially restore them to their 
original depth and that will, in effect, add approximately 
1,700 acre feet of storage capacity to our surface water 
storage system.
    They also offer other benefits, but from a water supply 
standpoint, it is critical for us to be able to have as much 
storage capacity as possible simply because we are at the last 
leg of the Rio Grande. Nobody takes water out of the river any 
further south than Brownsville. So, consequently, taking 
advantage of those available releases when they are available 
in our water rights, we need to enhance our surface water 
storage capacity, and that is how we would do that, with the 
resaca system.
    Mr. Ortiz. And I just have one more question. Going back to 
the funding, Mr. Deputy Secretary, do you make your own request 
or do you go by what the Administration requests as far as 
funding?
    Mr. Rinne. Congressman, each year, of course, as we develop 
our budget request, we look at our overall program, and just 
focusing in on, say, the Title XVI program, as part of that 
activity, we will try to work through and see what we--we would 
want it, obviously, to be in line with the Administration 
priority, but we will look at what projects--we are trying, 
first off, to complete all the projects, all the Title XVI 
projects.
    So we are trying to complete the ones that we have on the 
books and there are quite a few there, and so then we will just 
try to--we work through a process of that along with our other 
programs and then we will make a submittal through the 
Department, which, of course, then gets worked by the 
Department and Office of Management and eventually becomes part 
of the Administration's proposal.
    Mr. Ortiz. But it just so happens that the ones that we are 
talking about today are not in the books, so that means that 
there is no money for them. Now, we want to work with you, and 
I know that if we don't fund it, there is no way you can work 
on it. But in many instances, and I have said this before, the 
next war we are going to have is not going to be about oil. It 
is going to be about water.
    In my neck of the woods, you get down to the nitty-gritty. 
I mean, you go to the school children, you know, how they flush 
the toilet, and it sounds pretty nasty, but I have said this 
before. They even had a contest in the schools to see if the 
children could come up with something that would rhyme. Do you 
know what they came up with, because we were having a serious 
water shortage? And it sounds nasty, but this is the only way 
how they would get children not to flush the toilet. And they 
came up with an award-winning slogan, Mr. Chairman. They came 
up and said, ``If yellow, you let it mellow. If brown, you 
flush it down.'' Can you imagine when we have to get to that 
level and we don't find any relief? I mean, this is pretty 
serious.
    I know we have a hard-working Chairman here who is very 
conscious of the problems, not only in my district, but 
throughout the United States. We want to help you, Mr. 
Chairman. I am willing to do everything in my part to help. 
But, you know, I am at the last, like Mr. Campirano just 
stated, at the end of the Rio Grande. Besides all the stuff 
they flush into the river, we get the last of it. So this is 
very, very serious and I just hope that maybe we can find a 
solution.
    I am willing to--I mean, if--and I guess I was the only 
Hispanic member who supported the President on the war with 
Iraq, but I think that if we can go to Iraq and fund all these 
projects in Iraq, let us do something for our people here. I 
hope that we can find a solution, because our communities are 
in dire need of finding a water solution to our area.
    Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman.
    Mr. Baca?
    Mr. Baca. Thank you very much, Mr. Chairman. First of all, 
I want to thank you for having this hearing and our Minority 
Ranking Member, Grace Napolitano. It is a serious problem and a 
top priority for a lot of us.
    Water is very critical in each and every one of our 
districts and I know the district that I represent and the 
Inland Empire, which is the fastest-growing region in the State 
of California, and I appreciate your leadership in reference to 
H.R. 2991, which I am a cosponsor of that legislation, which I 
think it is important for our area that serves both the city of 
Ontario and Fontana.
    As we look at our growth in our region, we continue to have 
people moving into the Inland Empire, so with housing, water 
then becomes a very critical problem in the Inland Empire to 
make sure that we have an abundant supply of water, and quality 
of water is very important as we look at the Inland Empire.
    That is why I am somewhat appalled to hear that the 
Administration does not support these initiatives that are 
before us because when you look at water, water is like gold, 
and without water, you can't live. It seems like sometimes we 
try to look for other alternatives. The bottom line is that we 
need to supply water and quality water and we need it now and 
sometimes we wait a little bit too long.
    Based on that, I want to ask two of the members from my 
district, either Richard Atwater or Bob DeLoach, one of these 
questions, and either one of you can answer. More than one-
third of the groundwater wells in the city of Rialto, 
California, are now closed because of perchlorate 
contamination. Drought conditions have added to the situation 
to cause a water emergency. I understand that the legislation 
discussed today does not address the issue of perchlorate 
contamination, but I would like to know how these water 
recycling projects will be able to benefit the areas facing 
hardships because of perchlorate contamination. Will it have an 
indirect effect on these issues?
    Mr. Atwater. If I may, Congressman Baca, you raise a good 
point. If we develop recycled water, we can reduce the need for 
that local well water, or as Robert pointed out, imported water 
needs. By having the city parks in Rialto or in Fontana, the 
industrial users like Inland Paper in Ontario, using recycled 
water, it puts less stress on that valuable drinking water.
    It is kind of common sense. Why would you want to use the 
valuable drinking water to irrigate a golf course, the city 
park, the high school football, all that outdoor turf, or 
industrial uses. And with the perchlorate problem, what 
available good, clean drinking water we have, clearly, you 
don't want to waste it. I don't mean that in a bad term. But 
why would you want to use that really pure water for things 
that you could use the recycled water for? And that would 
stretch Rialto's supplies if we could develop more recycled 
water in the area.
    Mr. Baca. Robert, do you want to attempt to add anything 
else?
    Mr. DeLoach. Thank you, Congressman Baca. I would agree 
with Mr. Atwater. I think the point of your question was, would 
recycled water alleviate this pressure? Obviously, it doesn't 
clean up the perchlorate issue, but as Rich indicated, it does 
relieve the pressure so that communities such as Rialto in your 
district does not perhaps have to shut off as many wells. They 
can continue to supply water to their customers at a cheaper 
rate rather than going to the imported water.
    The whole issue of perchlorate, as you know, is another 
issue that is exploding in our area and is rapidly becoming the 
primary issue affecting water quality and water supply. But 
recycled water certainly will get to the point where you can 
offset that loss to some degree, but not completely.
    Mr. Baca. Thank you. The next question I have, small 
satellite treatment plants are part of the plans to drought-
proof the area. How long would you predict that it would take 
to build these treatment plants and put them into use, question 
one. Two, how cost effective are these treatment plants as 
opposed to other types of water projects?
    Mr. DeLoach. Thank you. Two good questions. Our plan that 
we have in place currently would have the sites developed and 
ready to go by 2010 delivering water. The actual cost 
differential would be about 80 percent of the Metropolitan 
rate, which is currently at $333 an acre foot. So they do 
represent substantial savings to our customers.
    Mr. Baca. Thank you. Once these projects are put into 
place, do you expect them to become models for other regions 
and States, question number one, and I am wondering if this 
could be another incentive for Congress to move this 
legislation through. Do you agree?
    Mr. DeLoach. Yes and yes.
    Mr. Baca. Thanks. And, by the way, Mr. Chairman, I want to 
thank you for taking the leadership and also going to New 
Mexico to Belen, the hometown where I was at, to deal with the 
water problems and the droughts that they are having in the 
immediate area. I know a lot of the farmers are very concerned 
because they didn't have water in the immediate area and part 
of it was because of an endangered species that was identified 
there. But water is a problem and drought was a problem in that 
area, so thank you.
    Mr. Calvert. Just as Brownsville, Texas, has two members of 
Congress, now Belen, New Mexico, has two members also 
representing their interests, so they are a very fortunate 
community.
    I would like to spend a little time here on my bill, H.R. 
2828, promote that and ask Mr. Rinne about hopefully the 
Bureau's support of that bill. As you know, as we talk about 
the issue of contaminants, whether it is perchlorate or arsenic 
or nitrate or any other number of contaminants that we must 
deal with under the Federal law and the State law, and so there 
is a Federal role to play, I think. And certainly desalination, 
as we meet the Federal requirements that are outlined to get 
out of the Colorado River and to utilize the bay delta to meet 
the guidelines of the Endangered Species Act, which is also a 
Federal law, there is a Federal role to play.
    In H.R. 2828, we try to outline legislation that meets the 
requirements that the Federal Government lays out, at the same 
time gives us additional water supply to meet the needs of the 
West and, in fact, the entire country as we get into these 
problems, not just in the West. We see some issues right now in 
Florida and Georgia. We certainly had a problem right here in 
Maryland until last year, I think. Happily, the drought ended.
    But I would hope--I think we are getting the support 
virtually of every water agency in the State of California and 
certainly most everybody in the West, and I think this is a 
great way and I am certainly happy. I think everyone here is 
supporting this legislation. But I want to hear from the 
Department, the Bureau. Have you had a chance to look at this 
legislation, and I would like to have your input on it a little 
bit.
    Mr. Rinne. Mr. Chairman, I honestly have not myself, and so 
I am feeling a little bit unprepared. But I guess if that would 
be helpful and with the record being open, I would be very glad 
to--we could get back to you on that.
    Mr. Calvert. Well, I know that when you went on your 2025 
road trip, you heard a lot about recycling, desalination, and 
the rest of it from everyone in the West, and so I would hope 
that you will take a good look at that because we intend to 
mark this bill up pretty quickly and to move it forward, 
because as we are here today, as I mentioned in my opening 
statement, addressing these bills. They are fine bills. They 
want to do the right thing for the country.
    We have a water crisis all over the country. It was like I 
mentioned in New Mexico. We have got problems in Nevada. 
Nevada, as you know, right now in this quantification agreement 
they are trying to figure out a way to buy some additional 
water, but you mentioned water transfers. They are not that 
simple, as you know. I don't have to lecture you on this. You 
know that as people get water out of the river, if someone 
wants to sell it, it doesn't necessarily mean they can sell it 
because of the way the water law within the States. They are 
allocated.
    So it is more, I think, an easier route for the Federal 
Government to take to leverage resources into developing water 
throughout the West, whether it is reclamation, desalination, 
and the rest. So I would certainly hope that we can continue to 
work with the Department and with the Bureau to make sure that 
we get that help.
    Mr. Pearce, any additional questions?
    We have a list of questions here that I am going to submit 
to all of our witnesses. If I could get some written answers 
back, I would appreciate that.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. There are a 
couple of things that I have left hanging here.
    One of the questions I have is for Mr. Campirano, whether 
or not you have been in contact with the Department of 
Interior, any previous contact with the Bureau regarding your 
projects and what kind of help have you gotten from them.
    Mr. Campirano. We have actually worked with the Bureau in 
Texas and the Bureau is very, very helpful.
    Mrs. Napolitano. The Bureau in Texas, you mean the Texas 
Bureau.
    Mr. Campirano. Yes.
    Mrs. Napolitano. But how about our Federal Bureau?
    Mr. Campirano. Well, I am talking about the staff in the 
Texas Bureau, out of Austin. In fact, we have been working with 
them on implementing one project at the present time. The 
problem that we see with the Bureau, again, as has been stated 
here, is they simply don't have the resources to respond, and 
many of the issues that we face, as everyone else in this panel 
is, that they are critical. I mean, they are things that need 
to be done now and can't be waited on.
    But the projects that we have and the discussions that we 
have had with the Bureau have been very, very helpful, and 
certainly we hope that the deliberations that you are having of 
being able to provide the resources to implement the projects 
will give them that much more opportunity to actually begin to, 
in a more expeditious manner, begin to address our concerns and 
get some of these projects implemented. But efforts to date 
have been very, very helpful with the Bureau.
    Mrs. Napolitano. Could you use some more?
    Mr. Campirano. I beg your pardon?
    Mrs. Napolitano. Could you use some more help?
    Mr. Campirano. Absolutely. We--actually, some of these 
things we feel we are ready to implement, so we could save that 
money and go directly into implementation if they had the 
resources available to push these projects.
    Mrs. Napolitano. You border Brownsville, Texas--I mean, 
Matamoros. What is the population of Brownsville versus 
Matamoros?
    Mr. Campirano. Brownsville's population is 150,000. 
Matamoros's population is about 650,000.
    Mrs. Napolitano. OK. I thought it was closer to a million. 
But what is your daily traffic from south of the border?
    Mr. Campirano. Bridge crossings, I believe, average into 
the 50,000 a day line on the three international bridges.
    Mrs. Napolitano. So that adds to your daily--because those 
people go to work, they go to eat, they go to shop, and that 
increases your use of your local resources, namely water, am I 
correct?
    Mr. Campirano. That is correct.
    Mrs. Napolitano. OK. So I just wanted to see how that--
because you haven't had much of a population growth in 
Brownsville.
    Mr. Campirano. On the contrary. Brownsville is one of the 
fastest-growing regions of the country and the population 
growth from the last census was roughly 30 percent and there is 
no indication that is going to slow down any. The same thing 
really goes for all of the border regions of Mexico. There is a 
tremendous influx of population from the interior of Mexico to 
the Fontana and Matamoros is also experiencing--
    Mrs. Napolitano. What about your snowbirds?
    Mr. Campirano. That typically is a population that would 
begin to arrive in November and stay through March. Spring 
breakers run them out.
    Mrs. Napolitano. Numbers?
    Mr. Campirano. Roughly, in the Valley--I am going to talk 
about the Valley--according to studies done by University of 
Texas Pan-American, we roughly get 150,000 what we call winter 
Texans in our area.
    Mrs. Napolitano. So you have all these added uses, or 
users, that require additional services.
    Mr. Campirano. That is correct.
    Mrs. Napolitano. OK. Thank you.
    Mr. Atwater, we have talked about the cap, the Federal cap, 
the 25 percent or $20 million on Title XVI. Is that sufficient?
    Mr. Atwater. I think certainly since 1992, Congress has 
articulated that 25 percent cap and it has worked well for many 
of the projects. Most of them actually, as Denis Bilodeau from 
Orange County Water District testified, they are at 4 percent 
now, so certainly 4 percent is a lot less than 25 percent. And 
in general, very few of the projects get over 20 percent.
    Mrs. Napolitano. But would there be a reason to have a 
review of the size of the projects, the amount of people it 
serves and the effect that that percentage may not be adequate?
    Mr. Atwater. Certainly, that is a good question that ought 
to be revisited on a regular basis, is the cost sharing 
formula. In this case, very small Federal investment leveraging 
a large amount of non-Federal dollars to solve water problems 
throughout the West, and under the Chairman's bill, nationally, 
which I think is a great idea. It is certainly something that 
ought to be revisited on a regular basis by Congress and the 
Administration.
    Mrs. Napolitano. Thank you, sir.
    Thank you, Mr. Chairman. That ends my questioning.
    Mr. Calvert. I would just be happy if they would make the 
25 percent. That would be great, and we need to help you with 
that, I understand, Mr. Rinne.
    One further comment. In the issue with Texas, and this has 
the attention of the President of the United States. He brought 
it up to me, so he is very much aware of the issue in Texas. Of 
course, the problem in Brownsville, much of that is brought 
about by the situation with Mexico and their inability or their 
refusal to deliver the water under the treaty obligations that 
they are required to do. So hopefully, there is some small 
relief that is going in that direction, but certainly, we have 
the State Department that needs to do a better job of working 
that issue and making sure that Brownsville gets the water that 
is owed to them.
    Again, I thank all the witnesses for being here. I thank 
you for your support on H.R. 2828. Go out and tell everybody 
about it and pass the gospel. I appreciate it. We are 
adjourned.
    [Whereupon, at 4:09 p.m., the Subcommittee was adjourned.]

    [A letter submitted for the record by The Honorable Gary C. 
Ovitt, Mayor, City of Ontario, California, follows:]

[GRAPHIC] [TIFF OMITTED] T9270.011


</pre></body></html>
